A
Case: 20-2194

Document: 8-1

Page: 1

Date Filed: 11/24/2020

November 19, 2020
DLD-033
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2194
MAURICE A. JACKSON, Appellant
VS.
SUPERINTENDENT DALLAS SCI; ET AL.
(E.D. Pa. Civ. No. 2-16-cv-00174)
Present:

JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted is Appellant's notice of appeal which may be construed as a
request for a certificate of appealability pursuant to 28 U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,
Clerk

______________________________ ORDER_______________________________
The foregoing request for a certificate of appealability is denied because Appellant
has not “made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). Jurists of reason could not debate that the District Court correctly denied
Appellant’s claim that trial counsel was ineffective for failing to meet with him prior to
trial to devise a defense strategy and for failing to effectively communicate a plea offer.
See Strickland v. Washington, 466 U.S. 668 (1984). Appellant has conceded that this
claim, and his claim that the trial court erred in failing to grant a mistrial based on
prosecutorial misconduct, are procedurally defaulted, and he has not shown cause and
prejudice or a fundamental miscarriage of justice sufficient to overcome the default. See
Coleman v. Thompson, 501 U.S. 722, 750 (19911: see also Martinez v. Ryan, 566 U.S. 1,
14 (2012) (“To overcome the default, a prisoner must also demonstrate that the
underlying ineffective-assistance-of-trial-counsel claim is a substantial one, which is to
say that the prisoner must demonstrate that the claim has some merit.”). Jurists of reason
would also agree that his claim that his PCRA counsel was ineffective is non-cognizable
in habeas, see 28 U.S.C. § 2254(i), and his claim that the evidence was insufficient to

%

&

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MAURICE JACKSON,
CIVIL ACTION
Petitioner,
v.
NO. 16-0174
1

TOM MCGINLEY , et al.,
Respondent.

ORDER
AND NOW, this 9th day of January, 2018, upon consideration of Petitioner’s Petition for
Writ of Habeas Corpus (Doc. No. 1), Respondent’s Response (Doc. No. 18), Petitioner’s Traverse
(Doc. No. 24), Petitioner’s Supplemental Motion for Discovery (Doc. No. 27), the Report and
Recommendation of United States Magistrate Judge Elizabeth Hey (Doc. No. 28), and Petitioner’s
Objections (Doc. No. 33), I find as follows:
1. On August 1, 2008, a jury found Petitioner guilty of first degree murder, firearms not to be
carried without a license, and possession of an instrument of crime. The convictions arose
from an incident, on May 29, 2007, during which Petitioner shot at the victim four times,
as the victim fled, ultimately hitting him in the back and killing him. On October 17,
2008, Petitioner was sentenced to an aggregate term of life in prison.
2. Petitioner timely filed a direct appeal asserting that the evidence was insufficient to sustain
his conviction and that the verdicts were against the weight of the evidence.

The

t

1 Petitioner named Lawrence P. Mahally as the Respondent in this action. However, Petitioner is
currently located in State Correctional Institute (“SCI”) at Coal Township, Pennsylvania, and the
current superintendent of SCI-Coal Township ist Tom McGinley. Therefore, pursuant to Rule 2(a)
of the Rules Governing Section 2254 Cases, I have named Mr. McGinley as the respondent in this
case.

ENT*D JAN 10 2011

5. On April 18, 2017, United States Magistrate Judge Elizabeth Hey issued a Report and
Recommendation finding that Petitioner’s claim of PCRA counsel ineffectiveness is not
cognizable as a stand-alone claim, Petitioner’s claim of ineffective assistance of trial
counsel is procedurally defaulted, Petitioner’s claim of insufficient evidence is meritless,
and Petitioner’s claim of trial court error is both procedurally defaulted and meritless.
6. Petitioner timely filed objections on June 1, 2017.

LEGAL STANDARDS
7. Under 28 U.S.C. § 636(b)(1)(B), a district court judge may refer a habeas petition to a
magistrate judge for proposed findings of fact and recommendations for disposition. When
objections to a Report and Recommendation have been filed, the district court must make
a de novo review of those portions of the report to which specific objections are made. 28
U.S.C. § 636(b)(1)(C); Sample v. Diecks. 885 F.2d 1099, 1106 n.3 (3d Cir. 1989). In
performing this review, the district court “may accept, reject, or modify, in whole or in
part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636(b)(1).

DISCUSSION
8. Petitioner’s objections to the Report and Recommendation challenge the Magistrate
Judge’s findings on all four of his habeas claims.
Claims One and Two
9. In claim one, Petitioner argues that PCRA counsel was ineffective for abandoning an
ineffective assistance of trial counsel claim that Petitioner had included in his original pro

3

12. Petitioner objects to this finding and argues that his underlying trial counsel
ineffectiveness claim was indeed “substantial.” In support, he asserts that (1) trial counsel
informed him of a plea bargain offering fifteen to thirty years in prison just hours prior to
voir dire, and (2) trial counsel failed to meet face-to-face prior to trial to discuss
“important aspects” of his case. (Pet.’s Objections 4.) Petitioner s Objections to the
Magistrate Judge’s Report go on to argue that “had it not been for trial counsel’s lack of
communication and delay in proposing said plea bargain, Petitioner would have had time
to consider the deal and would have taken the deal.” (Id,) According to Petitioner’s
Objections, trial counsel did not give Petitioner ample time to consider the deal and, in
fact, she advised Petitioner to decline the deal “as she felt confident in winning the case
and felt that ‘the State did not have a strong case’ for a conviction.” (Id,) Finally,
Petitioner’s Objections assert that an evidentiary hearing regarding off-the-record
conversations will disclose that Petitioner would have accepted the deal and that he lost
the opportunity to take the more favorable sentence. (Id, at 5.)
13. Based on the record before me, I cannot find that Petitioner’s underlying ineffective
assistance of counsel claim for failure to timely communicate a plea bargain is meritless.
Ineffective assistance of counsel claims are analyzed under the two-part test set forth in
United States v. Strickland. 466 U.S. 668 (1984), to determine whether a defendant’s
constitutional rights have been violated by trial counsel s performance. Id, at 687. First,
“the defendant must show that counsel’s performance was deficient, i.s., that it fell below
“prevailing professional norms.” Id, at 687—88. Second, the defendant must show that
the deficient performance prejudiced the defense,” i.e. “that counsel’s errors were so
serious as to deprive the defendant of a fair trial, a trial whose result is reliable.

5

Id, at

United States v. Giamo, 153 F. Supp. 3d 744, 755-56 (E.D. Pa. 2015) (analyzing
ineffectiveness claim regarding plea offer based on evidentiary hearing testimony), afPd.
665 F. App’x 154 (3d Cir. 2016); Boston v. Mooney, No. 14-229, 2015 WL 6674530, at
*13 (E.D. Pa. Jan. 9, 2015) (addressing testimony regarding plea discussions from PCRA
proceeding), report and recommendation adopted by 141 F. Supp. 3dd 352 (E.D. Pa. Oct.
29, 2015); Smith v. United States. No. 09-533, 2014 WL 4825369, at *3-10 (D. Del. Sept.
29, 2014) (holding an evidentiary hearing to address ineffective assistance of counsel
claim for failure to communicate a plea agreement).
16. Here, Petitioner’s ineffective assistance of trial counsel claim for failure to timely
communicate a plea offer was never raised in the state court and, therefore, never
addressed in any substantive fashion.

Petitioner presented this claim in the federal

proceedings,2 and the Magistrate Judge appropriately framed the relevant question as
whether the underlying ineffectiveness claim is “substantial”—i. e., that it has some
merit—such that PCRA counsel’s failure to raise it was cause to excuse the procedural
default.

When addressing this question, however, the Magistrate Judge did not

acknowledge the standards set forth in Frye and Lafler. Moreover, the Magistrate Judge
did not have the benefit of a developed record from either prior state court proceedings or
a federal evidentiary hearing in order to determine whether counsel failed to timely inform

2 Specifically, in his Traverse, Petitioner argues that “[b]efore petitioner started to select his jury,
the very first time, he met his trial counsel face to face was inside an attorney-client room, where
trial counsel had inform[ed] petitioner of a plea bargain for 15 to 30 years. Petitioner contends
that if trial counsel would have consulted pertinent aspects of his case with him prior to trial
which would ha[ve] given him the appropriate amount of time to consider said guilty plea bargain
for 15 to 30 years, petitioner could have expended this time consulting with his family.” (Pet.’s
Traverse, ECF No. 24, at p. 6.)
7

19. Accordingly, I decline to adopt the Report and Recommendation as to claims one and two.
I will refer the case back to the Magistrate Judge for an evidentiary hearing and a
supplemental report and recommendation on these issues.
Claim Three
20. Claim three of Petitioner’s habeas petition alleges that the evidence was insufficient to
support his conviction for first-degree murder because the government did not demonstrate
that he possessed the specific intent to kill.
21. In the Report and Recommendation, the Magistrate Judge agrees with the Pennsylvania
Superior Court’s assessment of this issue on direct appeal. According to state court, the
evidence established that Petitioner shot at the victim as the victim fled from Petitioner,
and that one of the bullets entered the victim’s back and penetrated multiple organs. An
eyewitness, Mylan Harrison, saw Petitioner and the victim together just prior to the
shooting and observed Petitioner shoot the victim in the back from a distance of fifteen
feet. The Magistrate Judge concluded that, based on this evidence, the Commonwealth
had met its burden of establishing that Petitioner possessed the specific intent to kill by
showing that Petitioner used a deadly weapon upon a vital part of the victim’s body.
22. Petitioner objects on the grounds that eyewitness Harrison was not reliable. Petitioner
reasons that, at trial, Harrison stated that he witnessed the entire shooting. (N.T. 7/29/08,
pp. 192-93.)

When confronted with prior preliminary hearing testimony, however,

Harrison admitted that he did not observe Petitioner actually shooting and, because he ran
away, did not see what happened to the victim after the shooting. (N.T. 7/29/08, pp. 26364, 268.) Petitioner now argues:
Commonwealth witness Harrison did not know what the pair were
talking about before the shooting. He did not know what the
9

Claim Four
25. In claim four of his petition for habeas relief, petitioner argued that the trial court erred by
failing to grant Petitioner a mistrial following two alleged incidents of prosecutorial
misconduct: (1) the prosecutor’s opening statement where he stated that both the victim
and the victim’s brother had been murdered and the victim’s mother was suffering as a
result; and (2) the prosecutor’s question on cross-examination where he asked how many
times the witness had seen Petitioner with a gun, which was not a fact in evidence.
26. The Magistrate Judge concluded that this claim was procedurally defaulted because it was
not presented in either his direct appeal or his PCRA appeal. Furthermore, she rejected
Petitioner’s attempt to establish cause for his default.

Finally, the Magistrate Judge

remarked that even if she were to construe the claim as one of ineffective assistance of
counsel for failing to request a mistrial due to prosecutorial misconduct (a claim Petitioner
had exhausted), both the Superior Court on direct appeal and the PCRA court properly
found these claims meritless because the trial court gave curative and/or cautionary
instructions to the jury.
27. Petitioner now objects to the R&R only to the extent it found that the prosecutor’s
comment regarding the murder of the victim’s brother was not grossly inflammatory.
Petitioner contends that this comment prevented a fair trial and could not be cured by a
cautionary instruction.
28.1 agree with the Magistrate Judge that the prosecutor’s comments did not deprive
Petitioner of a fair trial. The Third Circuit maintains a presumption that juries follow the
5 Petitioner also objects to the finding that this claim is procedurally defaulted. I need not
address this argument because I agree with the Magistrate Judge’s finding that the claim is
substantively meritless. Petitioner does not raise an objection as to the R&R s findings on the
prosecutor’s allegedly prejudicial cross-examination question.
11

brother had nothing to do with the case before it and that Petitioner had no involvement
in that matter. Petitioner does not identify what prejudice remains after these curative
instructions. Accordingly, I agree with the R&R and will overrule Petitioner’s objection
on this basis.
WHEREFORE, it is hereby ORDERED that:
1. Petitioner’s Objections to the Report and Recommendation as to claims one and two of
the Petition for Writ of Habeas Corpus are SUSTAINED;
2. Petitioner’s Objections to the Report and Recommendation as to claims three and four of
the Petition for Writ of Habeas Corpus are OVERRULED;
3. The Report and Recommendation (Doc. No. 28) is ADOPTED IN PART and
REJECTED IN PART as set forth in this Order;
4. The Petition for Writ of Habeas Corpus is REFERRED back to United States Magistrate
Judge Elizabeth Hey for appointment of counsel, further briefing, any necessary
evidentiary hearing, and a supplemental report and recommendation on the sole issue of
the merits of Petitioner’s claim that trial counsel was ineffective for failing to discuss a
plea bargain with him until just prior to the start of trial;
5. Petitioner’s Supplemental Motion for Discovery (Doc. No. 27) is DENIED AS MOOT.

BY THE COURT:

Mitchell S. Goldberi

13

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
4/19/2017

RE:

JACKSON v. MCGINLEY, ET AL
CANo. 16-174

NOTICE
Enclosed herewith please find a copy of the Report and Recommendation filed by
United States Magistrate Judge Elizabeth T. Hey, on this date in the above captioned matter.
You are hereby notified that within fourteen (14) days from the date of service of this Notice of
the filing of the Report and Recommendation of the United States Magistrate Judge, any party
may file (in duplicate) with the clerk and serve upon all other parties written objections thereto
(See Local Civil Rule 72.1 IV (b)). Failure of a party to file timely objections to the Report
& Recommendation shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to factual findings and legal conclusions of the
Magistrate Judge that are accepted by the District Court Judge.
In accordance with 28 U.S.C. §636(b)(l)(B), the judge to whom the case is
assigned will make a de novo determination of those portions of the report or specified proposed
findings or recommendations to which objection is made. The judge may accept, reject or
modify, in whole or in part, the findings or recommendations made by the magistrate judge,
receive further evidence or recommit the matter to the magistrate judge with instructions.

\
\

Where the magistrate judge has been appointed as special master under F.R.Civ.P
53, the procedure under that rule shall be followed.
V-

KATE BARKMAN
Clerk of Court

By:/s/ P. Rosser
, Deputy Clerk
cc:

Simran Dhillon, Esq.
Maurice A. Jackson
Courtroom Deputy to Judge Mitchell S. Goldberg

civ623.frill

(11/07)

■I t

i

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MAURICE JACKSON

CIVIL ACTION

^ APR 19Z0tf

v.
TOM MCGINLEY, et. al. 1

NO. 16-0174

REPORT AND RECOMMENDATION
ELIZABETH T. HEY, U.S.M.J.

April 18,2017

This is a pro se petition for writ of habeas corpus filed pursuant to 28 U.S.C.
§ 2254, by Maurice Jackson (“Petitioner”), who is currently incarcerated at the SCI-Coal
Township, Pennsylvania. For the reasons that follow, I recommend that the petition be
denied.
I.

FACTS AND PROCEDURAL HISTORY
The facts and procedural history of the case were summarized by the Pennsylvania

Superior Court on direct appeal:
On August, 1, 2008, a jury found [Petitioner] guilty of first
degree murder, firearms not to be carried without a license,
and possession of an instrument of crime. [Petitioner’s]
convictions arose from an incident on May 29, 2007, during
which Mylan Harrison, who knew both [Petitioner] and the
victim, Keith McCorey, testified that [Petitioner] shot at
Petitioner named Lawrence P. Mahally as the Respondent in this action. Doc. 1.
However, Petitioner is currently located in State Correctional Institute (“SCI”) at Coal
Township, Pennsylvania, and the current superintendent of SCI-Coal Township is Tom
McGinley. See http://www.cor/pa.gov/Facilities/StatePrisons/Pages/Coal-Twp (last
visited Mar. 31, 2017). Therefore, I have named Mr. McGinley as the respondent in this
case. See Rule 2(a) of the Rules Governing Section 2254 Cases (state officer with
current custody to be named as respondent).

1 9 2017

McCorey four times, as McCorey fled from [Petitioner].
McCorey died of a gunshot wound to his back. The bullet
penetrated McCorey’s heart, lungs, diaphragm, spleen, and
liver. McCorey also suffered a gunshot wound to his foot.
Mr. Harrison waited about a week before coming forward to
police. Thereafter, [Petitioner] was arrested following a high­
speed vehicular chase. On October 17, 2008, [Petitioner] was
sentenced to an aggregate term of life imprisonment.
Commonwealth v. Jackson, No. 814 EDA 2009 at 1-2 (Pa. Super. Mar. 17, 2011)
(Response Exh. A) (“Super. Ct.-Direct”) (footnote omitted).
Following the denial of post-trial motions, Petitioner timely filed a direct appeal,
asserting the evidence was insufficient to sustain a verdict, and the verdicts were against
the weight of the evidence. On March 17, 2011, the Superior Court affirmed, concluding
that the Commonwealth proved specific intent to kill by demonstrating that Petitioner
shot the victim in a vital organ, Mr. Harrison’s testimony was sufficient to identify
Petitioner as the shooter, and that the conviction was consistent with the weight of the
evidence because Mr. Harrison’s testimony was corroborated by the medical examiner’s
opinion and it was for the jury to evaluate the alibi witness’s testimony. Super. Ct.-Direct
at 2-5. The Pennsylvania Supreme Court denied Petitioner’s request for allowance of
appeal on July 12, 2011. Commonwealth v. Jackson, 24 A.3d 362 (Pa. 2011) (table).
On February 21, 2012, Petitioner filed a pro se petition pursuant to the ^
Pennsylvania’s Post Conviction Relief Act (“PCRA”), 42 Pa. C.S.A. §§ 9541-9551,
presenting claims of ineffective assistance of trial and appellate counsel and trial court
error. Commonwealth v. Jackson, No. CP-5 l-CR-0012730-2007, PCRA Petition (Phila.
C.C.P. Feb. 23, 2012). Appointed counsel filed an amended PCRA Petition on
2

I1

November 27, 2013, alleging ineffectiveness of trial and appellate counsel.2
Commonwealth v. Jackson, No. CP-51-CR-0012730-2007, Amended PCRA Petition
(Phila. C.C.P. Feb. 23, 2012) (“Amended PCRA”). On July 11, 2014, the Honorable
Sheila Woods-Skipper dismissed the petition without a hearing, and later issued an
opinion recommending affirmance on appeal. Commonwealth v. Jackson, No. CP-51CR-0012730-2007, Opinion (Phila. C.C.P. Oct. 31, 2014) (Response Exh. B.) (“PCRA
Op.”).3

The Superior Court affirmed on PCRA appeal. Commonwealth v. Jackson, No.
2409 EDA 2014, Memorandum (Pa. Super. Aug. 31, 2015) (“Super. Ct.-PCRA”).4
Petitioner filed an untimely petition for allowance of appeal to the Pennsylvania Supreme
Court which was denied on November 13, 2015. Commonwealth v. Jackson, No. 117

Specifically, the Amended PRCA alleged ineffectiveness of trial counsel for
failing to challenge a witness’s ability to see at 4:30 a.m., failing to object to the jury
instruction on alibi testimony, and failing to move for DNA testing of a hat found at the
crime scene. See Amended PCRA 19(b),(d) & (e). The Amended PCRA also alleged
ineffectiveness of appellate counsel for failing “to raise an argument on appeal that the
[Petitioner] should be awarded a new trial as a result of the trial court’s error in denying a
motion for mistrial” concerning alleged prosecutorial misconduct, and a layered
ineffectiveness claim for failing to move for a mistrial or raise the issue of prosecutorial
misconduct related to the prosecutor’s opening statement. Id. 9(a) & (c).
3 Judge Woods-Skipper’s order denying the petition appears to be missing from the
state court record, but it is reflected on the docket and also in her later opinion. See
PCRA Op. at 2. The state court record does contain Judge Woods-Skipper’s June 9, 2014
Notice that the petition lacked merit and would be dismissed without further proceedings.
Commonwealth v. Jackson. No. CP-5 l-CR-0012730-2007, Notice Pursuant to Pa. R. Cr.
P. 907 (Phila. C.C.P. June 9, 2014).
4The District Attorney mistakenly attached the Superior Court opinion from a
different matter as Exhibit C to his Response, see Doc. 18 at 3 & Exh. C., but the actual
opinion is contained in the state court record.
3

EM 2015, Order (Pa. Nov. 13, 2015). Petitioner then filed a second PCRA petition,
seeking leave to file a petition for allowance of appeal to the Pennsylvania Supreme
Court nunc pro tunc, which the PCRA court granted on April 22, 2016. See
Commonwealth v. Jackson, CP-51-CR.-0012730-2007, Docket Sheet (Phila. C.C.P.)
(entries dated April 17 & 22, 2016). The subsequent petition for allowance of appeal,
filed on May 17, 2016, was denied by the Pennsylvania Supreme Court on September 13,
2016. See Commonwealth v. Jackson, No. 201 EAL 2016, 2016 WL 4769159, Order
(Pa. Sept. 13, 2016).
Meanwhile, on January 4, 2016,5 Petitioner filed a pro se federal habeas petition
asserting 4 grounds for relief; (1) ineffectiveness of PCRA counsel for abandoning a
claim of trial counsel’s ineffectiveness for failing to meet with Petitioner prior to trial to
devise a defense strategy; (2) ineffectiveness of trial counsel for failing to meet with
Petitioner to discuss defense trial strategy, (3) insufficient evidence to support a firstdegree murder conviction, and (4) trial court error for failing to grant a mistrial following
instances of prosecutorial misconduct. Doc. 1. The District Attorney filed a response to
the petition, arguing that the claims are procedurally defaulted and meritless, and
Petitioner filed a reply. Docs. 18 & 24. Petitioner has also filed motions for an

5The pro se petition was docketed on January 13, 2016, but the federal court
employs the “mailbox rule,” deeming the petition filed when given to prison authorities
for mailing. Bums v. Morton. 134 F.3d 109, 113 (3d Cir. 1998) (citing Houston v. Lack,
487 U.S. 266 (1998)). The original petition was signed on January 4, 2016, and
therefore, I will assume that Petitioner gave the petition to prison authorities for mailing
on that date. Doc. 1 at 18 (ECF pagination).
4

evidentiary hearing and for discovery. Doc. 25 & 27.6 The Honorable Mitchell S.
Goldberg has referred the matter to me for a Report and Recommendation. Doc. 2.
H.

TFGAL standards7
A.

Exhaustion and Procedural Default

Before the federal court can consider the merits of a habeas claim, Petitioner must
comply with the exhaustion requirement of section 2254(b), by giving “the state courts
one full opportunity to resolve any constitutional issues by invoking one complete round
of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526 U.S.
838, 845 (1999). The doctrine of procedural default is closely related to the exhaustion
requirement. It is not enough that Petitioner present his claims to the state court; he must
also comply with the state’s procedural rules in presenting his claims, thereby giving the
state courts a full and fair opportunity to address them. A failure to do so results in a
procedural default. Coleman v. Thompson. 501 U.S. 722, 750 (1991).

6Plaintiff s motion for discovery is captioned as a “Supplemental Motion for
Discovery,” but it is the only discovery motion the court has received. Doc. 27.
7The petition is timely. Petitioner’s conviction became final on October 10, 2011,
90 days after the Supreme Court of Pennsylvania denied Petitioner’s appeal on July 12,
2011. See Kanral v. United States, 166 F.3d 565, 570 (3d Cir. 1999) (conviction
becomes final when time for seeking next level of appeal expires if appeal is not taken);
Morris v. Horn. 187 F.3d 333, 337 n.l (3d Cir. 1999) (conviction became final after 90
days when time for seeking certiorari expires). Petitioner filed his PCRA petition 134
days later, on February 21, 2012, and the habeas limitations period tolled from that date
until September 13, 2016, when the Pennsylvania Supreme Court denied Petitioner’s
petition for allowance of appeal following the reinstatement of his appellate rights. As
Petitioner filed his habeas petition on January 4, 2016, before the limitations began
running again, his petition is clearly timely.
5

[A] state prisoner’s habeas claims may not be entertained by a
federal court “when (1) ‘a state court has declined to address
those claims because the prisoner had failed to meet a state
procedural requirement,’ and (2) ‘the state judgment rests on
independent and adequate state procedural grounds.’” Walker v.
Martin. 562 U.S. [307, 316] (2011) (quoting Coleman, 501 U.S.
at 729-30).
Maples v. Thomas, 565 U.S. 268, 280 (2012). A decision based on a state procedural
rule is considered independent if it does not rely on the merits of the federal claim or rest
primarily on federal grounds. Harris v. Reed, 489 U.S. 255, 260 (1989); see also Ake v.
Oklahoma, 470 U.S. 68, 75 (1985). “[A] state procedural ground is not ‘adequate’ unless
the procedural rule is ‘strictly or regularly followed,”’ Johnson v. Mississippi, 486 U.S.
578, 587 (1988), and the rule “speaks in unmistakable terms.” Doctor v. Walters, 96 F.3d
675, 683 (3d Cir. 1996) (abrogated on other grounds, Beard v. Kindler, 558 U.S. 53
(2009)). Thus, the procedural disposition must comport with similar decisions in other
cases such that there is a firmly established rule that is applied in a consistent and regular
manner “in the vast majority of cases.” Banks v. Horn, 126 F.3d 206, 211 (3d Cir. 1997)
(quoting Dugger v. Adams, 489 U.S. 401, 410 n.6 (1989)).
If a claim is found defaulted, the fedemLcourCmawaddr-ess-^
establishes cause for the defauIt and prejudice resulting therefrom,jk that a failure to
consider the claim will result in a

^

pf justice. Werts v. Vaughn.

228 F.3d 178, 192 (3d Cir. 2000). To meet the “cause” requirement to excuse a
procedural default, a Petitioner must “show that some objective factor external to the
defense impeded counsel’s efforts to comply with the State’s procedural rule.” LI, at
192-93 (quoting and citing Murray v. Carrier, 477 U.S. 478, 488-89 (1986)). To establish
6

prejudice, Petitioner must prove “‘not merely that the errors at.. . trial created a
possibility of prejudice, but that they worked to his actual and substantial disadvantage,
infecting his entire trial with error of constitutional dimensions.’” Id. at 193.
In order for a Petitioner to satisfy the fundamental miscarriage of justice exception
to the rule of procedural default, the Supreme Court requires that Petitioner show that a
“constitutional violation has probably resulted in the conviction of one who is actually
innocent.” Schluo v. Delo, 513 U.S. 298, 327 (1995) (quoting Carrier, 477 U.S. at 496).
This requires that Petitioner supplement his claim with “a colorable showing of factual
innocence .” McCleskev v. Zant 499 U.S. 467, 495 (1991) (citing Kuhlmann v. Wilson,
477 U.S. 436, 454 (1986)). In other words, a Petitioner must present new, reliable
evidence of factual innocence. Schlup, 513 U.S. at 324.
B.

Merits Review

Under the federal habeas statute, review is limited in nature and may only be
granted if (1) the state court’s adjudication of the claim “resulted in a decision contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States;” or if (2) the adjudication
“resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1)(2). Factual issues determined by a state court are presumed to be correct, rebuttable only
by clear and convincing evidence. Werts. 228 F.3d at 196 (citing 28 U.S.C.
§ 2254(e)(1)).

7

The Supreme Court has explained that “[u]nder the ‘contrary to’ clause, a federal
habeas court may grant the writ if the state court arrives at a conclusion opposite to that
reached by [the Supreme] Court on a question of law or if the state court decides a case
differently than [the Supreme] Court has on a set of materially indistinguishable facts.”
Williams v. Tavlor. 529 U.S. 362, 412-13 (2000). With respect to “the ‘unreasonable
application’ clause, a federal habeas court may grant the writ if the state court identifies
the correct governing legal principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Id at 413. The
“unreasonable application” inquiry requires the habeas court to “ask whether the state
court’s application of clearly established federal law was objectively unreasonable.” Id.
at 409. As the Third Circuit has noted, “an unreasonable application of federal law is
different from an incorrect application of such law and a federal habeas court may not
grant relief unless that court determines that a state court’s incorrect or erroneous
application of clearly established federal law was also unreasonable.” Werts, 228 F.3d at
196 (citing Williams. 529 U.S. at 411).
m.

DISCUSSION
A.

Grounds One and Two: Ineffectiveness of Counsel for Failing to Meet
Prior to Trial

Grounds One and Two are related. In Ground One, Petitioner argues that PCRA
counsel was ineffective for abandoning a claim that trial counsel was ineffective for
failing to meet with Petitioner prior to trial to devise a defense strategy, and in Ground
Two Petitioner asserts the underlying ineffectiveness of trial counsel claim. See Doc. 1 at
8

5,7 As to Petitioner’s ineffectiveness of PCRA counsel, such a claim is not cognizable
in habeas as a stand-alone, substantive claim. See 28 U.S.C. § 2254 (i) (“The
ineffectiveness ... of counsel during ... State collateral post-conviction proceedings
shall not be a ground for relief in a proceeding arising under section 2254. ),
Pennsylvania v. Finley. 481 U.S. 551, 555-57 (1987) (no constitutional right to counsel in
state post-conviction proceedings). Therefore, no relief can be granted on Ground One.
PCRA counsel’s performance in this regard becomes relevant, however, in the
context of the ineffectiveness of trial counsel claim asserted in Ground Two. Although
Petitioner claimed in his original PCRA petition that his trial counsel was ineffective in
failing to meet with him prior to trial, it was not asserted in his counseled Amended
PCRA or on PCRA appeal. Under Pennsylvania law, courts are not required to review a
petitioner’s pro se PCRA filing if that individual is represented by counsel who
subsequently amends the petition. See Commonwealth v. Purcell, 724 A.2d 293, 302
(finding courts are not required to review pro se PCRA petitions when petitioner is
represented by qualified counsel) (citing Commonwealth v. Ellis, 626 A.2d 1137, 1139)
(hybrid representation would overburden courts, therefore Superior Court did not need to
consider an appellant’s pro se brief when that appellant was represented by counsel who
was filing briefs on appellant’s behalf)). Furthermore, when a claim is raised only in a
pro se PCRA petition but not the amended petition, the claim is procedurally defaulted in
federal court because it has not been fairly presented to the state courts. See Trowery_w
Walters, 45 Fed. Appx. 206, 207 (3d Cir. Aug. 28, 2002) (non-precedential) (petitioner
did not exhaust state remedies when claim was mentioned in pro se but not amended
9

PCRA petition); Shiloh v. Wilkes, No. 14-0860, 2015 WL 5342704 at *5 (M.D. Pa. Sept.
14, 2015) (“Under Pennsylvania law, when a litigant is represented by counsel, the state
court will not entertain pro se briefs, and thus any claims presented by a represented
litigant exclusively in pro se filings are not ‘fairly presented’ to the state court.”).
Because the claim was not presented to the Superior Court, it is procedurally defaulted.
As previously noted, Petitioner can overcome default by showing cause and
prejudice, or that a failure to consider the defaulted claim will result in a fundamental
miscarriage of justice. Werts, 228 F.3d at 192. With regard to cause and prejudice,
Petitioner argues that the default of this claim should be excused under Martinez v. Ryan,
566 U.S. 1 (2012). Doc. 24 at 7 (ECF pagination). In Martinez, the Supreme Court
carved out a narrow exception to the rule that ineffective assistance of PCRA counsel
does not provide cause to excuse a procedural default, holding that “[inadequate
assistance of counsel at initial-review collateral proceedings may establish cause for a
prisoner’s procedural default of a claim of ineffective assistance at trial.” 566 U.S. at 9.
The Court explained that “if counsel’s errors in an initial-review collateral proceeding do
not establish cause to excuse the procedural default in a federal habeas proceeding, no
court will review the prisoner’s claims.” Id. at 10-11. Thus, the Martinez exception
applies only to claims of ineffective assistance of trial counsel where the errors or
absence of post-conviction counsel caused a default of these claims at the initial-review
post-conviction proceeding. Id. at 14: see also Norris v. Brooks, 794 F.3d 401, 405 (3d
Cir. 2015) (“Martinez made very clear that its exception to the general rule . .. applies
only to attorney error causing procedural default during initial-review collateral
10

proceedings, not collateral appeal.”)- In addition, to take advantage of Martinez,
Petitioner must “demonstrate that the underlying ineffective-assistance-of-trial-counsel
p.1 aim is a substantial one, which is to say that... the claim has some merit.” Martinez,
566 U.S. at 14.
Here, Petitioner’s ineffectiveness of trial counsel claim is defaulted because
counsel abandoned the claim in the Amended PCRA, and thus Martinez potentially
applies to excuse the default. However, he must also establish that his underlying
ineffectiveness claim is “substantial.” In reviewing a claim of ineffectiveness of counsel,
a court must apply a “strong presumption that counsel’s representation is within the wide
range of reasonable professional assistance. Harrington v. Richter, 562 U.S. 86, 104
(2011) (citing Strickland v. Washington, 466 U.S. 668, 688 (1984)). Petitioner must
demonstrate that counsel “made errors so serious that his representation fell below an
objective standard of reasonableness” and this standard cannot be met “based on vague
and conclusory allegations.” Zettlemover v. Fulcomer, 923 F.2d 284, 298 (3d Cir. 1991)
(denying habeas relief on LAC claim when petitioner failed to “set forth facts to support
his contention”). Petitioner must also demonstrate that counsel’s failure to meet and
objective standard of reasonableness “resulted in prejudice so as to deprive the petitioner
of a fair trial, that is, a trial whose result is reliable.” Id. at 295.

8Whether a claim has “some merit” is judged by the standard to obtain a certificate
of appealability. Martinez. 566 U.S. at 14 (citing Miller-El v. Cockerell, 537 U.S. 322,
327 (2003) (“A petitioner satisfies this standard by demonstrating that jurists of reason
could disagree with the district court’s resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.”)).
11

Petitioner alleges his trial counsel was ineffective for failing to meet with him
before trial to discuss strategy, stating such a meeting was necessary to allow “trial
counsel to asses[s] [P]etitioner’s demeanor, credibility and the overall impression” he
would have on the jury if he chose to take the stand. See Doc. 24 at 10 (ECF pagination).
He also alleges that “trial counsel’s dereliction ... was [so] total that it [led] to a
complete breakdown in the attorney-client relationship,” and that as a result he did not
have adequate time to evaluate an offered plea bargain. Id. at 11. Finally, he alleges that
his lawyer failed to inform him until the day of trial of a tape recording of an anonymous
call his office received from a person that his family identified as a former girlfriend, and
that if he had been informed earlier he could have asked his counsel to interview her as
there was a “strong possibility” she could strengthen his defense. Id. None of these
allegations make out a colorable ineffectiveness claim under Strickland. Petitioner fails
to address how the trial counsel’s strategy was inadequate, what alternative strategy
counsel should have chosen to pursue, what information he was unable to share as a
result of trial counsel’s failure to meet with him face-to-face prior to trial, and whether he
would have either testified or pled guilty had counsel performed differently. See, e^g.,
Brown v. Lawler, No. 09-2565, 2010 WL 11463158, at *5-6 (E.D. Pa. Jan, 19, 2010)
(Reuter, M.J.), approved and adopted (E.D. Pa. Oct. 13, 2016) (Sumck, J.)
(ineffectiveness claim for failing to meet prior to trial fails where petitioner offered only
bald allegations of ineffectiveness and record shows counsel was prepared for trial).
Furthermore, the record indicates that trial counsel adhered to Petitioner’s trial strategy
demands, including the presentation of an alibi defense which trial counsel advised
12

against.9 SeeN.T. 7/30/08, 162-63. Because the underlying claim of trial counsel
ineffectiveness was not substantial, Petitioner is not entitled to the benefit of Martinez.
Petitioner does not identify any other cause and prejudice argument to excuse the default
of this claim, nor is any apparent in the record.
Similarly, Petitioner does not make a showing that the failure to consider this
claim will result in a fundamental miscarriage of justice. As previously noted, this
exception requires new, reliable evidence of factual innocence. See Schlup, 513 U.S. at
324. The facts underlying this ineffectiveness claim were known to Petitioner at least at

the time of his PCRA petition, if not at the time of trial itself. As a result, this claim is
defaulted and cannot be reviewed.
B.

Onnnd Three: Insufficient Evidence

In his third claim, Jackson alleges that the evidence was insufficient to support his
conviction for first-degree murder because the government did not demonstrate that he
possessed the specific intent to kill. Doc. 1 at 9. Petitioner exhausted this claim on direct
appeal, and the District attorney argues the Superior Court correctly rejected this
argument as meritless. Doc. 18 at 13-15.

9The District Attorney also argues that Petitioner is not entitled to the benefit of
Martinez because the claim that PCRA counsel was ineffective (in failing to raise the
claims of ineffectiveness of trial counsel) is itself defaulted, citing Edwards v. Carpenter,
529 U.S. 446, 451-53 (2000). The District Attorney cites no post-Martinez cases to
support this proposition, and in light of my conclusion that Martinez is inapplicable on
other grounds, I do not find it necessary to further consider this argument at this time.
13

Principles of due process dictate that a person can be convicted only upon proof of
all the elements of the offense beyond a reasonable doubt. In re Winship, 397 U.Ss. 358,
364 (1970); Sullivan v. Cuvier. 723 F.2d 1077, 1083-84 (3d Cir. 1983); see also Jackson
v. Virginia. 443 U.S. 307, 324 (1979) (habeas relief available only where “no rational
trier of fact could have found guilt beyond a reasonable doubt”). Accordingly, in
reviewing challenges to the sufficiency of the evidence, a court must determine whether,
after reviewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” Sullivan. 723 F.2d at 1083-84 (quoting Jackson. 443 U.S. at 319) (emphasis in
original). Applying this standard under the habeas statute, a writ of habeas corpus may
be issued for evidentiary insufficiency only if the state courts have unreasonably applied
either the Jackson “no rational trier of fact standard,” or the state equivalent of the
Jackson standard. 28 U.S.C. § 2254(din): see Smith v. Vaughn, No. 96-8482, 1997 WL
338851, at *7 (E.D. Pa. June 17, 1997). Pennsylvania courts follow the Jackson rule.
See Commonwealth v. Trill. 543 A.2d 1106, 1112 (Pa. Super. 1988) (verdict will be
upheld if, “viewing the evidence in the light most favorable to the Commonwealth, and
drawing all reasonable inferences favorable to the Commonwealth, there is sufficient
evidence to find every element of the crime beyond a reasonable doubt”) (quoting
Commonwealth v. Griscavage, 517 A.2d 1256, 1257 (Pa. 1986)).
In addressing Petitioner’s case on direct appeal, the Superior Court adopted the
reasoning of the trial court in concluding that the evidence was sufficient to support the
conviction, including the conclusion that Jackson possessed the requisite intent to kill.
14

This issue is easily resolved. Our courts have long held that
the use of a deadly weapon upon a vital part of the body is
sufficient to demonstrate an intent to kill. Commonwealth v.
Cruz, 919 A.2d 279, 281 (Pa. Super. 2007), appeal denied,
593 Pa. 725, 928 A.2d 1289 (2007). Such an inference arises
where the victim is shot in the back with a gun. [Petitioner]
argues that the Commonwealth failed to show that
[Petitioner] was aiming at a vital organ. Such a suggestion is
utterly specious. No such showing is required. It is assumed
that the gun was aimed precisely where the bullet penetrated,
which in this case was the victim’s heart. The evidence
clearly demonstrated a specific intent to kill.
Super. Ct.-Direct, at 3. This decision is neither contrary to, nor an unreasonable
application of, the Jackson sufficiency standard.
In Pennsylvania, first-degree murder is defined as a criminal homicide that is
“committed by an intentional killing.” 18 Pa. C.S.A. § 2502(a). A first-degree murder
conviction requires the Commonwealth to demonstrate that a human being was
unlawfully killed; the defendant was the killer; and the defendant acted with malice and a
specific intent to kill.” See Commonwealth v. Diggs, 949 A.2d 873 (Pa. 2008). Malice is
defined as “wickedness of disposition, hardness of heart, cruelty, recklessness of
consequences, and a mind regardless of social duty, although a particular person not be
intended to be injured.” Commonwealth v. McHale, 858 A.2d 1209, 1212-13 (Pa. Super.
2004) (qnnting Commonwealth v. Pigg, 571 A.2d438, 441 (Pa. Super. 1990)).
In this case, Mylan Harrison testified that he saw Petitioner and the victim
engaged in conversation, and then Petitioner fired multiple shots from a semiautomatic
pistol at the victim from a distance of 15 feet. N.T. 07/29/08 at 192-93. The
Commonwealth corroborated this evidence with the testimony of the medical examiner,
15

who reported that the victim was shot in the back from a distance of over three feet. Id.
at 279, 282-84. The medical examiner concluded the victim’s cause of death was the
bullet that entered the victim’s back, penetrating the victim’s heart, lungs, diaphragm,
spleen and liver. Id. at 279-80.
Considering this evidence in the light most favorable to the prosecution, the
Commonwealth met its burden to establish that Jackson possessed the specific intent to
kill. Through the testimony of the eyewitness and the medical examiner, the
Commonwealth demonstrated that Petitioner possessed specific-intent to kill by using a
deadly weapon upon a vital part of the body. Cruz, 919 A.2d at 281. As such, the
Superior Court reasonably concluded that the evidence was sufficient to convict Jackson
of first-degree murder.
C.

Ground Four: Trial Court Error

Lastly, Petitioner argues that the trial court erred by failing to grant Petitioner a
mistrial following alleged prosecutorial misconduct.10 Petitioner did not present the state

l0Petitioner argues there were two incidents of prosecutorial misconduct which
should have given rise to a mistrial. Doc. 1 at 10-11 (ECF pagination). He does not
identify the incidents, but in his reply refers to a misconduct claim raised on PCRA. Doc.
24 at 15 (ECF pagination) (citing PCRA Op. at 3). That claim relied on the prosecutor’s
opening statement, where he stated that both the victim and the victim’s brother had been
murdered and the victim’s mother was suffering as a result. N.T. 07/29/08 at 50. After
trial counsel objected and moved for a mistrial, the court sustained the objection and
struck the statement from the record rather than granting a mistrial. Id. at 63-68.
Petitioner had also argued on PCRA that, on cross-examination, the prosecutor asked a
witness how many times she had seen Petitioner with a gun, assuming a fact not in
evidence. PCRA Op. at 5; N.T. 07/30/08 at 235. Counsel objected and again moved for
a mistrial. N.T. 07/30/08 at 235-40. The court struck the question from the record and
instructed the jury to not consider it. N.T. 07/31/08 at 6. I will assume that Petitioner
raises both of these allegations of misconduct here.
16

courts with a claim of trial court error or prosecutorial misconduct, but instead asserted
ineffectiveness claims for failing to request a mistrial due to the alleged prosecutorial
misconduct. An ineffectiveness of counsel claim is distinct from a trial court error claim
because they implicate different legal theories. See Duncan v. Henry, 513 U.S. 364, 366
(1995) (similarity of claim raised in habeas petition to claim addressed by state court on
merits is insufficient to exhaust) (citations omitted); Gattis v. Snyder, 278 F. 3d 222, 237
n 6 (3d Cir. 2002) (underlying substantive claim presented to state court as one of LAC
not exhausted because underlying claim involves different legal theory); cf Willis v.
Vaughn, 48 Fed. Appx. 402, 406 (3d Cir. 2002) (“[LAC] claims and underlying due
process claims are distinct, and exhaustion of one does not constitute exhaustion of the
other.”). Accordingly, Petitioner’s claim of trial court error is defaulted.
Petitioner recognizes that his claim of trial court error was not presented in his
direct or PCRA appeals, but asks the Court to permit him leave to explain why his habeas
petition contains a trial court error claim and not an ineffectiveness of counsel claim.
Doc. 24 at 15 (ECF pagination). Petitioner then proceeds to explain the discrepancy,
asserting he should be granted leeway given his pro se status and due to his limited access
to the prison law library and law clerks. However, these factors do not present sufficient
cause to excuse the procedural default of Petitioner’s trial court error claim.
First, pro se status is insufficient itself to excuse a procedural default. See Siluk v.
Beard, 395 F. App'x 817, 820 (3d Cir.2010) (“[P]ro se status, without more, cannot
constitute cause sufficient to excuse the procedural default of his federal claims in state
court.”); Caswell v. Rvan. 953 F.2d 853, 862 (3d Cir. 1992) (pro se status is not an
17

“objective factor external to the defense that will provide cause for a procedural default”).
Second, limited access to a prison law library is similarly insufficient to establish cause to
excuse a procedural default. See Bonilla v. Hurley, 370 F.3d 494, 498 (6th Cir. 2004)
(“the fact that [petitioner’s] time in the prison law library was limited to four hours per
week was insufficient to establish cause to excuse his procedural default.”); Sabo v.
Warden. London Correctional Institution, No. 16-0536, 2017 WL 56035, at * 2 (S.D.
Ohio, 2017) (“Courts have held repeatedly that a petitioner's pro se incarcerated status,
limited access to the prison law library, or ignorance of the law and . .. procedural
requirements do not constitute cause sufficient to excuse a procedural default.”).
Notably, Petitioner successfully completed and filed a timely habeas petition containing
four claims, despite alleged obstacles with regard to housing and access to the prison law
library access issues, thus undermining his assertion that the obstacles somehow
interfered with his ability to file an accurate habeas petition. Under the circumstances, I
conclude that Petitioner has failed to demonstrate cause sufficient to excuse the
procedural default of the trial court error claim.
Even were I to construe this claim as one of ineffectiveness of counsel for failing
to request a mistrial due to prosecutorial misconduct, a claim Petitioner did exhaust, he
would not be entitled to relief on the merits. Under Strickland, a petitioner seeking
habeas relief on the grounds of ineffective assistance of counsel must first show that
counsel’s performance was deficient. This requires showing that counsel made errors so
serious that counsel was not functioning as “counsel” guaranteed the defendant by the
Sixth Amendment. Second, a petitioner must show that the deficient performance
18

« >.

prejudiced the defense. This requires showing that counsel s errors were so serious as to
deprive the defendant of a fair trial, meaning a trial whose result is reliable. 466 U.S. at
687. In determining prejudice, the question is whether there is a reasonable probability
that the result of the proceeding would have been different. IcL at 694; see also Smith v.
Robbins, 528 U.S. 259, 284 (2000) (prejudice prong turns on “whether there is a
reasonable probability that, absent the errors, the petitioner would have prevailed”). The
Third Circuit has held that counsel will not be considered ineffective for failing to pursue
a meritless argument. Parrish v. Fulcomer, 150 F.3d 326, 328 (3d Cir. 1998).
As previously noted, there were two instances of alleged prosecutorial
misconduct, neither of which was found by the state courts to warrant a mistrial. As to
the prosecutor’s opening statements, the Superior Court stated as follows:
Here, during his opening statement, the prosecutor referenced
the murder of [the victim’s] brother to explain that [Harrison]
came forward because he felt that [the victim’s] mother had
another son who had been murdered. [Petitioner’s] trial
counsel immediately objected, and moved for a mistrial. The
court sustained the objection, struck the statement from the
record, and gave a cautionary instruction to the jury, but
denied the motion for a mistrial.... See Commonwealth v.
Jones, 668 A.2d 491, 504 (Pa. 1995) (stating juries are
presumed to follow cautionary instructions). In addition to
giving the cautionary instruction, the trial court instructed the
jury that the arguments of counsel are not evidence. ... See
Commonwealth v. Stokes, 839 A.2d 226, 233 (Pa. 2003)
(stating that a court’s instruction that a prosecutor’s
comments do not constitute evidence was sufficient to
remove any prejudice). Thus, because trial counsel objected
and moved for a mistrial, and secured a cautionary instruction
from the trial court, Jackson’s first ineffectiveness claim is
without merit.

19

Super. Ct.-PCRA at 4-5. The second instance of prosecutorial misconduct occurred
during cross examination of an alibi witness, when the witness was asked “how many
times have you seen [Petitioner] in possession of a gun?” N.T. 07/30/08 at 235. Counsel
again objected and moved for a mistrial, see id., and ultimately Judge Woods-Skipper
struck the question, instructing the jurors that they could not consider the prosecutor’s
question in their deliberations and that questions are not evidence. N.T. 07/31/08 at 6.
As the trial court noted:
Juries are presumed to follow the instructions of a trial court
to disregard inadmissible evidence. Therefore, the Court
cured any potential prejudice by immediately sustaining the
defense objection and instructing the jurors that they could
not consider the question. Accordingly, counsel cannot be
deemed ineffective for failing to raise a meritless claim.
PCRA Op. at 6 (state law citations omitted).11
The reasoning of the state courts is neither contrary to, nor an unreasonable
application of, Strickland. In response to the prosecutor’s opening statement, counsel
objected and moved for a mistrial, and therefore did what Petitioner argues he should
have done. N.T. 07/29/08 at 50. As to the prosecutor’s statement during crossexamination of the alibi witness, counsel objected and again moved for a mistrial. N.T.
07/30/08 at 235. Judge Woods-Skipper struck the prosecutor’s question and instructed
the jurors that they could not consider the question because it was not evidence. N.T.

nIt appears that Petitioner did not pursue this second ground for the prosecutor’s
misconduct as part of his PCRA appeal, which is an additional reason for default of this
portion of the claim. Super. Ct.-PCRA at 4 & n.2 (Petitioner did not identify which
prosecutorial statements were improper, but referenced comments regarding victim’s
brother in Statement of Questions).
20

07/31/08 at 6. Under these circumstances, counsel’s actions cannot be deemed deficient,
and in any event there is no evidence that the prosecutor’s statement deprived Petitioner
of a fair trial. Therefore, even were I to construe this as an ineffectiveness claim, I would
find it to be without merit.12
IV.

MOTIONS
Petitioner has moved the court for an evidentiary hearing and discovery. Doc. 25

&27. Both motions should be denied.
Petitioner is not entitled to an evidentiary hearing on his claims. Federal courts
are constrained in their authority to hold such hearings. Under the habeas statute, “a
determination of a factual issue made by a State court” is presumed correct, rebuttable by
clear and convincing evidence. 28 U.S.C. § 2254(e)(1). If an “applicant has failed to
develop the factual basis of a claim in State court proceedings, the court shall not hold an
evidentiary hearing on the claim unless the applicant” shows two elements. First, he
must show that the claim relies on either a new and retroactive rule of constitutional law
or that a factual predicate for the claim could not have been previously discovered by the
exercise of due diligence, and second he must show that “the facts underlying the claim
would be sufficient to establish by clear and convincing evidence that but for
constitutional error, no reasonable factfinder would have found the applicant guilty.” Id.
§ 2254(e)(2)(A) & (B); see also Palmer v. Hendricks, 592 F.3d 386, 393 (3d Cir. 2010)

12Petitioner had also claimed on PCRA that direct appellate counsel was
ineffective for failing to raise prosecutorial misconduct, but the Superior Court found the
claim waived on PCRA appeal for failure to address it in his brief. Super. Ct.-PCRA at 4
n. 1. Petitioner does not raise that claim here.
21

*f

(in determining propriety of an evidentiary hearing, court should “consider whether such
a hearing could enable an applicant to prove the petition’s factual allegations, which, if
true, would entitle the applicant to federal habeas relief’) (quoting Schirro v. Landrigan.
550 U.S. 465, 474 (2007)). For purposes of applying this section, an applicant will not be
considered to have failed to develop the record in state court unless “there is lack of
diligence, or some greater fault, attributable to the prisoner or the prisoner’s counsel.”
Taylor v. Horn, 504 F.3d 416, 436 (3d Cir. 2007) (quoting Thomas v. Bamer, 428 F.3d
491, 498 (3d Cir. 2005)). Here, the facts Petitioner alleges were clearly known to him at
the time of trial and/or on PCRA appeal. In addition, Petitioner’s claims are not
complicated and can be resolved on the record without the need for an evidentiary
hearing.
Similarly, Petitioner’s motion for discovery should be denied. Discovery in a
habeas proceeding is not automatic. Rule 6(a) of the Rules Governing Section 2254
Cases states that “[a] judge may, for good cause, authorize a party to conduct discovery
under the Federal Rules of Civil Procedure and may limit the extent of such discovery.”
The Supreme Court has interpreted good cause to mean that discovery will be permitted
“where specific allegations before the court show reason to believe that the petitioner
may, if the facts are fully developed, be able to demonstrate that he is entitled to relief.”
Peterkin v. Horn. 30 F. Supp.2d 513, 516 (E.D. Pa. 1998) (quoting Bracv v, Gramlev.
520 U.S. 899, 908-09 (1997)). For the reasons set forth in this Report, I find that
Petitioner has failed to meet this threshold. Accordingly, Petitioner’s motion for
discovery should be denied.
22

s

V.

CONCLUSION
Petitioner’s habeas petition is timely, and raises 4 grounds for relief. Ground One,

which asserts ineffectiveness of PCRA counsel, is non-cognizable. Ground Two, raising
ineffectiveness of trial counsel for failing to meet with Petitioner prior to trial, is
procedurally defaulted. Ground Three, challenging the sufficiency of the evidence, is
exhausted and meritless. Ground Four, related to trial court error for failing to grant a
mistrial, is procedurally defaulted and, if construed as an exhausted ineffectiveness claim,
is meritless. Plaintiffs motion for an evidentiary hearing and motion for discovery
should be denied.
Accordingly, I make the following:

23

;
t

RECOMMENDATION
AND NOW, this

/

8^

day of April 2017, IT IS RESPECTFULLY

RECOMMENDED that the petition for writ of habeas corpus be DENIED, and that
Plaintiffs motion for an evidentiary hearing and motion for discovery be DENIED.
There has been no substantial showing of the denial of a constitutional right requiring the
issuance of a certificate of appealability. Petitioner may file objections to this Report and
Recommendation. See Local Civ. Rule 72.1. Failure to file timely objections may
constitute a waiver of any appellate rights.

L'-..

UluL
IZABETH T. HEY, U.S.M/

24

r Hr. )
' ’r.

*

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

MAURICE JACKSON
v.

NO. 16-0174

LAWRENCE P. MAHALLY, et al.

ORDER
AND NOW, this

,201

day of

, upon careful and

independent consideration of the petition for writ of habeas corpus, and after review of
the Report and Recommendation of United States Magistrate Judge Elizabeth T. Hey, IT
IS ORDERED that:
1.

The Report and Recommendation is APPROVED AND ADOPTED;

2.

The petition for a writ of habeas corpus is DENIED.

3.

Plaintiffs motion for an evidentiary hearing and motion for discovery are
DENIED.

4.

There is no basis for the issuance of a certificate of appealability.

BY THE COURT:

MITCHELL S. GOLDBERG, J.

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MAURICE JACKSON,
CIVIL ACTION
Petitioner,
v.
NO. 16-0174
TOM MCGINLEY, et al.,
Respondents.
ORDER
AND NOW, this 15th day of May, 2020, upon consideration of Petitioner’s Petition for
Writ of Habeas Corpus (Doc. No. 1), the Supplemental Report and Recommendation (R&R) of
United States Magistrate Judge Elizabeth Hey (Doc. No. 61), Petitioner’s Objections to the
Supplemental R&R (Doc. No. 65), and Respondents’ Response (Doc. No. 66) I find as follows:
1. On August 1, 2008, a jury found Petitioner guilty of first-degree murder, firearms not to be
carried without a license, and possession of an instrument of crime. The convictions arose
from an incident on May 29, 2007, during which Petitioner shot at the victim four times, as
the victim fled, ultimately hitting him in the back and killing him. On October 17, 2008,
Petitioner was sentenced to an aggregate term of life in prison.
2. Petitioner timely filed a direct appeal asserting that the evidence was insufficient to sustain
his conviction and that the verdicts were against the weight of the evidence.

The

Pennsylvania Superior Court affirmed the verdict on March 17, 2011, finding sufficient
evidence of Petitioner’s intent to kill. On July 12, 2011, the Pennsylvania Supreme Court
denied Petitioner’s request for allowance of appeal.
3. Petitioner filed a timely pro se petition pursuant to Pennsylvania’s Post-Conviction Relief
Act (“PCRA”), 42 Pa. C.S.A. §§ 9541-9551, setting forth claims of ineffective assistance

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 2 of 9

of both trial and appellate counsel, as well as claims of trial court error. On November 27,
2013, the court appointed counsel who filed an amended PCRA petition alleging modified
claims of ineffective assistance of trial and appellate counsel. The PCRA court dismissed
the petition without a hearing.

The Superior Court affirmed on August 31, 2015.

Although Petitioner’s first request for allowance of appeal to the Pennsylvania Supreme
Court was denied as untimely, he filed a second PCRA petition seeking leave to petition
for allowance of appeal nunc pro tunc. That petition was granted and Petitioner filed his
subsequent petition for allowance of appeal, which the Pennsylvania Supreme Court
denied on September 13, 2016.
\

4. On January 4, 2016, during the pendency of his second PCRA petition, Petitioner filed the
present pro se federal habeas petition setting forth four grounds for relief: (1) ineffective
assistance of PCRA counsel for abandoning an ineffectiveness claim premised on trial
counsel’s failure to meet with Petitioner prior to trial to devise a defense strategy;
(2) ineffective assistance of trial counsel for failing to meet with Petitioner prior to trial to
discuss defense trial strategy; (3) insufficient evidence to support a first-degree murder
conviction; and (4) trial court error for failing to grant a mistrial following instances of
prosecutorial misconduct.
5. On April 18, 2017, United States Magistrate Judge Elizabeth Hey issued an R&R finding
that: (a) Petitioner’s claim of PCRA counsel ineffectiveness is not cognizable as a stand­
alone claim; (b) Petitioner’s claim of ineffective assistance of trial counsel is procedurally
defaulted; (c) Petitioner’s claim of insufficient evidence is meritless; and (d) Petitioner’s
claim of trial court error is both procedurally defaulted and meritless.
6. Petitioner timely filed objections on June 1, 2017. I sustained Petitioner’s objection on his
claim of ineffective assistance of trial counsel for failing to discuss a plea bargain with him
2

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 3 of 9

until just hours prior to trial. Specifically, I noted that there was an insufficient record on
which to determine whether trial counsel had provided Petitioner with “enough
information ‘to make a reasonably informed decision whether to accept a plea offer.’”
Jackson. 2018 WL 347573, at *3 (citing U.S. v. Bui, 795 F.3d 363, 366 (3d Cir. 2015)
(quoting Shotts v. Wetzel. 724 F.3d 364, 376 (3d Cir. 2013)). Although I remanded to
Judge Hey for further proceedings on this issue, I denied his objections on all other
grounds.
7. On remand, Judge Hey appointed counsel, received additional briefing from the parties,
and conducted an evidentiary hearing on this sole remaining claim.
8. On May 31, 2019, Judge Hey filed a Supplemental Report and Recommendation
(“Supplemental R&R”) denying Petitioner’s claim that trial counsel was ineffective for
failing to timely discuss a plea bargain with him. She remarked that the claim was
procedurally defaulted and that the default was not excused under Martinez v. Ryan, 566
U.S. 1 (2012) because neither PCRA counsel nor trial counsel were ineffective.
9. Petitioner filed new objections, and Respondents filed a response.
LEGAL STANDARDS
10. Under 28 U.S.C. § 636(b)(1)(B), a district court judge may refer a habeas petition to a
magistrate judge for proposed findings of fact and recommendations for disposition. When
objections to a Report and Recommendation have been filed, the district court must make a
de novo review of those portions of the report to which specific objections are made. 28
U.S.C. § 636(b)(1)(C); Sample v. Diecks. 885 F.2d 1099, 1106 n.3 (3d Cir. 1989). In
performing this review, the district court “may accept, reject, or modify, in whole or in
part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636(b)(1).
3

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 4 of 9

DISCUSSION
11. Without disputing that his claim of trial counsel ineffectiveness is procedurally defaulted,
Petitioner contends that he has established cause to excuse default under Martinez because
the Supplemental R&R erred in finding that trial counsel was not ineffective for failing to
meet with Petitioner prior to trial to discuss strategy. Specifically, Petitioner argues that:
(1) Judge Hey reached an incorrect factual conclusion that trial counsel met with Petitioner
at least twice before trial; (2) Judge Hey incorrectly concluded that, even assuming that
trial counsel did not meet with Petitioner until Friday, July 25, 2008—the Friday before his
Monday trial start date—such a late meeting did not constitute deficient performance; and
(3) Judge Hey incorrectly found that no prejudice resulted from any trial counsel
action/inaction, and improperly discredited Petitioner’s testimony that he would have
accepted the Commonwealth’s plea offer if he understood that a conviction would result in
a mandatory life sentence.
A. Whether Judge Hev Incorrectly Found that Trial Counsel Met with Petitioner Twice Before
Trial
12. Petitioner’s first objection asserts that the evidence presented at the evidentiary hearing
contradicts Judge Hey’s conclusion that trial counsel met with Petitioner on the Friday
before the trial and on at least one other occasion. Petitioner contends that (a) he testified
•' * t v>‘

• ■

r

-

- •

,

.

.

-

at the evidentiary hearing that trial counsel never visited him in prison; (b) visitor logs
from the Philadelphia Prison System and the Pennsylvania Department of Corrections
corroborated that testimony; and (c) trial counsel herself had no specific memory of
Plaintiffs case, but simply testified that her general practice was to visit clients in the
prison and would not have proceeded to trial without several pre-trial meetings with her

4

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 5 of 9

clients. Given this evidence, Petitioner now asserts that it was an abuse of discretion for
Judge Hey to find that trial counsel met with Petitioner prior to July 25, 2008.
13. This factual determination has no relevance to the question at issue here. The sole issue
for resolution in the Supplemental R&R concerned Petitioner’s representation that trial
counsel informed him of the Commonwealth’s plea bargain just hours prior to voir dire.
See Jackson v. McGinlev. No. 16-174, 2018 WL 3477573, at *6 (E.D. Pa. Jan. 9, 2018)
(remanding “on the sole issue of the merits of Petitioner’s claim that trial counsel was
ineffective for failing to discuss a plea bargain with him until just prior to the start of
trial).) I held that if, after an evidentiary hearing, testimony established that trial counsel
knew of the plea offer prior to that time and never told Petitioner about it, trial counsel
could be deemed to have rendered a deficient performance. Id. at *4. Moreover, I
determined that Petitioner had plausibly alleged prejudice in that the plea bargain allegedly
offered fifteen to thirty years’ imprisonment, and Petitioner ultimately received a life
sentence after trial. Id.
14. But following an evidentiary hearing on this issue, Judge Hey found that it was not “just
hours” prior to voir dire when trial counsel communicated the plea deal. Rather, she
concluded that “the Commonwealth did not make the plea offer until July 24, and . . .
counsel conveyed it to Petitioner the next day, in her meeting with Petitioner prior to the ex
parte hearing.” (Supp. R&R 14.) Judge Hey opined that “[i]n light of the July 25
transcript showing that counsel conveyed the offer the day after receiving it from the
prosecutor, PCRA counsel had no basis to complain of counsel’s ineffectiveness in this
respect.” (Id.)

5

Case 2:16-cv-00174-MSG

Document 67 Filed 05/15/20 Page 6 of 9

15. To the extent Judge Hey found that trial counsel had met with Petitioner to discuss trial
strategy on at least one occasion prior to July 25th, that factual finding has no bearing on
the issue before me. Accordingly, I will overrule this objection.
B. Whether Judge Hey Incorrectly Concluded that the Last Minute July 25. 2008 Meeting Did
Not Constitute Ineffective Assistance
16. Petitioner next contends that Judge Hey improperly concluded that, even assuming trial
counsel did not meet with Petitioner until July 25, 2008, such a late meeting did not
constitute ineffective assistance. Petitioner posits that “because of the serious nature of the
charge against him (first degree murder with a mandatory life sentence upon conviction)
and because of his age and education level (he was then 21 years old, had only reached the
8th grade, and was assigned to special education classes ... it was unreasonable for trial
counsel to fail to meet with him until the Friday before a Monday trial date” to “discuss the
evidence and defense strategy.” (Pet’r’s Objections 3.)
17. Again, however, this objection attempts to expand the scope of the issue before me. As
noted above, I already approved and adopted the original R&R’s recommendation that the
claim of trial counsel ineffectiveness for failing to meet and discuss trial strategy with
Petitioner was procedurally defaulted. The sole issue on which the matter was remanded
back to Judge Hey was whether trial counsel failed to communicate to Petitioner an earlieroffered plea deal until just hours prior to the start of trial.
18. In consideration of this issue, Judge Hey reviewed a transcript from an ex parte hearing
,

held by the state trial judge on Friday, July 25, 2008, the same day that trial counsel met
with Petitioner and communicated the plea offer. In that transcript, Petitioner expressed to
the trial court that he had just received an offer from the Commonwealth of fifteen to thirty
years for third degree murder, he had considered that offer, and he rejected the offer and
6

Case 2:16-cv-00174-MSG Document 67 Filed 05/15/20 Page 7 of 9

wished to proceed to trial. (Supp. R&R 16 (citing N.T. 7/25/08, at 10—11).) Petitioner
further indicated that he was satisfied with his counsel’s performance up to that point. (Id.)
19. Based on this evidence, Judge Hey correctly concluded that, under the controlling case of
Missouri v. Frye, 566 U.S. 133, 145 (2012), counsel did not violate his constitutional duty
to timely and properly communicate a formal plea offer to Petitioner. Indeed, she cogently
noted that “[w]hile Petitioner’s situation is indeed compelling, as he had to make a difficult
decision under difficult circumstances, the Constitution does not guarantee him a specific
amount of time or a specific quality of attorney-client relationship in considering whether
to accept a plea offer.” (Supp. R&R 16.)
20. Petitioner cites no cases, and I find none, supporting the notion that communication of a
plea deal three days prior to the start of trial—particularly when the prosecution just
presented that plea deal—constitutes ineffective assistance of trial counsel. As such, I will
overrule this objection as well.
C. Whether Judge Hey Incorrectly Concluded that Trial Counsel’s Deficient Performance was
Not Prejudicial
21. Petitioner’s final objection challenges Judge Hey’s conclusion that counsel’s performance
was not prejudicial. He notes that Judge Hey found Petitioner not credible when he
testified that he did not understand that a conviction would result in a mandatory life
sentence. Petitioner asserts that because there was no contrary evidence to contradict his
testimony, it was an abuse of discretion for Judge Hey to reject it outright.
22.1 find no merit to this objection on three grounds. First, a district court “may not reject a
finding of fact by a magistrate judge without an evidentiary hearing, where the finding is
based on the credibility of a witness testifying before the magistrate judge.” Haas v.
Warden. SCI Somerset. 760 F. Supp. 2d 484, 487 (E.D. Pa. 2010) (quoting Hill v.
7

Case 2:16-cv-00174-MSG

Document 67 Filed 05/15/20 Page 8 of 9

Beyer, 62 F.3d 474, 482 (3d Cir. 1995)). “Our judicial system affords deference to the
finder of fact who hears the live testimony of witnesses because of the opportunity to judge
the credibility of those witnesses.” Hill, 62 F.3d at 482.
23. Second, contrary to Petitioner’s argument, Judge Hey had ample basis for discrediting
Petitioner’s testimony that he did not realize he was facing a mandatory life sentence.
Specifically, she noted that:
•

“Regardless of whether counsel advised Petitioner to accept or reject
the plea offer, it is implausible that counsel discussed the plea offer
with Petitioner without discussing the penalty for a first-degree
murder conviction, and illogical for petitioner to suggest that he did
not know the penalty for first-degree murder would not be
substantially more than the offer of 15-to-30 years’ imprisonment
contained in the plea offer for third-degree murder.” (Supp. R&R
18.)

•

“Petitioner’s testimony that he wanted to take the plea deal . . . but
rejected it because his counsel advised him to go to trial in light of
her confidence that she could ‘beat my case,’ . . . does not square
with ... [Petitioner’s insistence] on proceeding with an alibi defense
over counsel’s express advice to the contrary.” (Id.) Indeed,
Petitioner testified that he really did not talk too much about the plea
deal after he told trial counsel that he thought the alibi witness was
his best option. (Id. at 19.)

•

“Petitioner has continuously asserted his innocence, as he conceded
during the evidentiary hearing . . . Petitioner testified that he would
have agreed with the facts underlying the conviction in the course of
a guilty plea colloquy, but that the facts would not be true . . .
Protestations of innocence are relevant to determine whether a
petitioner would have plead guilty for purposes of establishing
prejudice.” (Id. at 19 (citing Wheeler v. Rozum. 410 F. App’x 453,
458 (3d Cir. 2010)).

24. Given that Judge Hey set forth abundant reasons for her credibility determination, I have
no basis on which to disturb her factual finding that Petitioner was not prejudiced by the
timing of the plea deal disclosure. I will therefore overrule this objection as well.

8

Case 2:16-cv-00174-MSG

Document 67 Filed 05/15/20 Page 9 of 9

WHEREFORE, it is hereby ORDERED that:
1. Petitioner’s Objections to the Supplemental Report and Recommendation are
OVERRULED;
3. The Supplemental Report and Recommendation (Doc. No. 61) is APPROVED AND
I

ADOPTED;
4. The Petition for Writ of Habeas Corpus (Doc. No. 1) is DENIED.
5. There is no basis for the issuance of a certificate of appealability.
6. The Clerk of Court shall mark this case CLOSED.

BY THE COURT:

/s/Mitchell S. Goldberg
MITCHELL S. GOLDBERG, J.

9

Case 2:16-cv-00174-MSG Document61 Filed 05/31/19 Page lot22

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MAURICE JACKSON

CIVIL ACTION

v.
TOM MCGINLEY, et. al.

NO. 16-0174

SUPPLEMENTAL REPORT AND RECOMMENDATION
ELIZABETH T. HEY, U.S.M.J.

May 30, 2019

This is a pro se petition for writ of habeas corpus filed pursuant to 28 U.S.C.
§ 2254, by Maurice Jackson (“Petitioner”), who is currently incarcerated at SCI-Coal
Township, Pennsylvania. I previously issued a Report and Recommendation (“R&R”)
recommending that the petition be denied. After Petitioner filed objections, the
Honorable Mitchell S. Goldberg recommitted the matter to me for a supplemental R&R.
For the reasons that follow, I again recommend that the petition be denied.
I.

FACTS AND PROCEDURAL HISTORY1
Petitioner is serving a sentence that followed a 2008 trial before the Honorable

Sheila Woods-Skipper in the Philadelphia Court of Common Pleas. The facts and
procedural history of the case were later summarized by the Pennsylvania Superior Court
on direct appeal:
On August 1, 2008, a jury found [Petitioner] guilty of first
degree murder, firearms not to be carried without a license,
and possession of an instrument of crime. [Petitioner’s]
convictions arose from an incident on May 29, 2007, during
'The procedural history set forth in my original R&R is largely repeated here for
purposes of context.

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 2 of 22

which Mylan Harrison, who knew both [Petitioner] and the
victim, Keith McCorey, testified that [Petitioner] shot at
McCorey four times, as McCorey fled from [Petitioner].
McCorey died of a gunshot wound to his back. The bullet
penetrated McCorey’s heart, lungs, diaphragm, spleen, and
liver. McCorey also suffered a gunshot wound to his foot.
Mr. Harrison waited about a week before coming forward to
police. Thereafter, [Petitioner] was arrested following a high­
speed vehicular chase. On October 17, 2008, [Petitioner] was
sentenced to an aggregate term of life imprisonment.
Commonwealth v. Jackson. No. 814 EDA 2009 at 1-2 (Pa. Super. Mar. 17, 2011) (Doc.
18 Exh. A) (“Super. Ct.-Direct”) (footnote omitted).
Following the denial of post-trial motions, Petitioner timely filed a direct appeal,
arguing that the verdict was based on insufficient evidence and was against the weight of
the evidence. On March 17, 2011, the Superior Court affirmed, concluding that the
Commonwealth proved specific intent to kill by demonstrating that Petitioner shot the
victim in a vital organ, that Mr. Harrison’s testimony was sufficient to identify Petitioner
as the shooter, and that the conviction was consistent with the weight of the evidence
because Mr. Harrison’s testimony was corroborated by the medical examiner’s opinion
and it was for the jury to evaluate the alibi witness’s testimony. Super. Ct.-Direct at 2-5.
The Pennsylvania Supreme Court denied Petitioner’s request for allowance of appeal on
July 12, 2011. Commonwealth v. Jackson. 24 A.3d 362 (Pa. 2011) (table).
On February 23,2012, Petitioner filed a pro se petition pursuant to the
Pennsylvania’s Post Conviction Relief Act (“PCRA”), 42 Pa. C.S.A. §§ 9541-9551,
presenting claims of trial court error and ineffective assistance of counsel (“IAC”) at trial
and appeal, including a claim that his trial counsel failed to meet with him prior to trial to
2

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 3 of 22

discuss defense strategy. Commonwealth v. Jackson, No. CP-5 l-CR-0012730-2007,
PCRA Petition, at 3 (Phila. C.C.P. Feb. 23,2012). Appointed counsel filed an amended
petition alleging IAC at both trial and appeal, but did not raise the IAC claim with respect
to trial counsel’s failure to meet with him prior to trial. Commonwealth v. Jackson. No.
CP-51-CR-0012730-2007, Amended PCRA Petition, 19 (Phila. C.C.P. Nov. 27, 2013).2
On July 11, 2014, Judge Woods-Skipper dismissed the petition without a hearing, and
later issued an opinion recommending affirmance on appeal. Commonwealth v. Jackson.
No. CP-5 l-CR-0012730-2007, Opinion (Phila. C.C.P. Oct. 31, 2014) (Doc. 18 Exh. B.).
The Superior Court affirmed on PCRA appeal. Commonwealth v, Jackson. No.
2409 EDA 2014, Memorandum (Pa. Super. Aug. 31, 2015). Petitioner filed an untimely
petition for allowance of appeal which the Pennsylvania Supreme Court denied.
Commonwealth v. Jackson. No. 117 EM 2015, Order (Pa. Nov. 13, 2015). After
Petitioner obtained leave to file a petition for allowance of appeal nunc pro tunc, see
Commonwealth v. Jackson, CP-51-CR-0012730-2007, Docket Sheet (Phila. C.C.P.)
(entries dated April 17 & 22,2016), the Pennsylvania Supreme Court denied review on
September 13, 2016. See Commonwealth v. Jackson, No. 201 EAL 2016, 2016 WL
4769159, Order (Pa. Sept. 13, 2016).

2The amended petition alleged IAC at trial and appeal for not pursuing motions for
mistrial based on prosecutorial misconduct in the opening statement and questioning of a
witness, and IAC at trial for failing to challenge a witness’s ability to see at 4:30 a.m.,
failing to object to the jury instruction on alibi testimony, and failing to move for DNA
testing of a hat found at the crime scene. See Amended PCRA *| 9.
3

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 4 of 22

Meanwhile, on January 4, 2016,3 Petitioner filed his present pro se federal habeas
petition asserting four grounds for relief; (1) ineffectiveness of PCRA counsel for
abandoning a claim of trial counsel’s ineffectiveness for failing to meet with Petitioner
prior to trial to devise a defense strategy, (2) ineffectiveness of trial counsel for failing to
meet with Petitioner to discuss defense trial strategy, (3) insufficient evidence to support
a first-degree murder conviction, and (4) trial court error for failing to grant a mistrial
following instances of prosecutorial misconduct. Doc. 1. The District Attorney filed a
response to the petition, arguing that the claims are procedurally defaulted and meritless,
and Petitioner filed a reply. Docs. 18 & 24.
Judge Goldberg referred the matter to me for an R&R, Doc. 2, and I previously
recommended that the petition be denied, concluding that claim one was not cognizable,
claim three lacked merit as it was reasonably rejected by the state courts, and claim four
was defaulted and lacked merit. Doc. 28 at 9, 14, 21. With respect to claim two, I
concluded that the claim was unexhausted and procedurally defaulted and that Petitioner
had not overcome the default, and that even if his PCRA counsel was ineffective in
failing to raise the issue, Petitioner failed to show that he was prejudiced by his trial
counsel’s failure to prepare. Id. at 12-13. Petitioner filed objections to the R&R, arguing
in the context of claim two that, among other things, just hours before voir dire his
counsel told him there was a plea offer of 15 -to- 30 years, and “had it not been for trial

3As noted in the original R&R, I deemed the petition filed on the date Petitioner
signed it and found it timely. Doc. 28 at 4 n.5, 5 n.7.
4

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 5 of 22

counsel’s lack of communication and delay in proposing said plea bargain, Petitioner
would have had time to consider the deal and would have taken the deal.” Doc. 33 at 4.
By Order dated January 9, 2018, Judge Goldberg adopted the R&R as to claims
three and four, and rejected it as to claims one and two. Doc. 34 at 9, 13

1-2.4 Judge

Goldberg referred the matter back to me “for appointment of counsel, further briefing,
any necessary evidentiary hearing, and a supplemental [R&R] on the sole issue of the
merits of Petitioner’s claim that trial counsel was ineffective for failing to discuss a plea
bargain with him until just prior to the start of trial.” Id. at 13 ^ 4. I appointed counsel,
Doc. at 46, and the parties filed additional briefing on the sole remaining claim. Docs.
43, 52 & 54. On May 6, 2019,1 conducted an evidentiary hearing. Docs. 57-59.
n.

DISCUSSION
The sole issue is whether Petitioner’s trial counsel provided ineffective assistance

in failing to discuss a plea bargain with him until just prior to trial. This was part of his
second claim, which asserted IAC for counsel’s failure to met with him to discuss trial
strategy.
For the reasons set forth in my original R&R, claim two is defaulted. Doc. 28 at
9-10; see also Doc. 34 at 4f10 (“The Magistrate Judge ... correctly noted that this claim
is procedurally defaulted.”). Petitioner relies on Martinez v. Ryan. 566 U.S. 1 (2012), to
overcome his default. In Martinez, the Supreme Court carved out a narrow exception to
the rule that ineffective assistance of PCRA counsel does not provide cause to excuse a
4Judge Goldberg agreed that claim one (ineffectiveness of PCRA counsel) is noncognizable, but sustained the objection because Petitioner relied on PCRA counsel’s
ineffectiveness to excuse his default of claim two. Doc. 34 at 3-4, 13.
5

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 6 of 22

procedural default, holding that “[inadequate assistance of counsel at initial-review
collateral proceedings may establish cause for a prisoner’s procedural default of a claim
of ineffective assistance at trial.” Id. at 9. Here, Petitioner’s ineffectiveness of trial
counsel claim is defaulted because counsel abandoned the claim in the Amended PCRA,
and thus Martinez potentially applies to excuse the default.
The Martinez analysis requires the court to determine whether PCRA counsel was
ineffective utilizing the familiar analysis enunciated in Strickland v, Washington. 466
U.S. 668, 688 (1984), but evaluating prejudice by determining whether the underlying
claim of ineffectiveness of trial counsel is “substantial” utilizing the standard for granting
a certificate of appealability. Martinez. 566 U.S. at 14 (citing Miller-El v. Cockerell. 537
U.S. 322, 327 (2003) (“A petitioner satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or
that jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.”); Workman v. Sup’t Albion SCI. 915 F.3d 928, 937-38 (Cir. Feb. 12,
2019); Preston v. Sup’t Graterford SCI. 902 F.3d 365, 376-77 (3d Cir. 2018). If the court
finds that PCRA counsel was ineffective utilizing this analysis, then the court proceeds to
address the merits of the underlying ineffective assistance of trial counsel claim, utilizing
the full Strickland analysis. Thus, Petitioner will only be entitled to relief on this claim if
PCRA counsel and trial counsel are found ineffective.
A.

PCRA CounsePs Performance

Petitioner’s first hurdle under Martinez is to establish PCRA counsel’s deficient
performance. Because PCRA counsel’s performance is inextricably tied up with trial
6

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 7 of 22

counsel’s performance, I begin by reviewing the evidence with respect to
communications between counsel and Petitioner leading up to his rejection of the plea
offer.
Petitioner testified at the recent evidentiary hearing that he first met his trial
counsel, Barbara McDermott,5 on Friday, July 25,2008, three days before the start of his
trial, at the Criminal Justice Center (“CJC”). N.T. 05/06/19 at 12-13.6 Judge McDermott
had been appointed in late 2007 to represent him, and he was incarcerated awaiting trial.
Id. at 7. Prior to their first meeting, the only communications he received from counsel
consisted of four letters, one of which included discovery, but none of which discussed
potential trial strategy. Id. at 12. Petitioner further testified that he and counsel never
communicated via telephone. Id. at 11-12. Instead, Petitioner described three visits
made to him by counsel’s investigator, the first of which Petitioner declined because he
Petitioner’s trial counsel is now a judge of the Philadelphia Court of Common
Pleas.
6Jury selection took place on Monday, July 28, and trial began on Tuesday, July
29. N.T. 07/28/08; 07/29/08 at 27. In his prior pro se filings in the state courts and in
this court, Petitioner stated that he did not meet with counsel until the morning of jury
selection. See, e.g., Doc. 24 at 6 (Petitioner’s pro se “Traverse to Response to Order to
Show Cause”); Doc. Doc. 25 at 3 (“Petitioner’s Request for an Evidentiary Hearing with
his Suggestion in Support”); Doc. 33 at 4 (Objections to R&R). In Petitioner’s
supplemental memorandum of law, appointed counsel alerted this court to a sealed ex
parte hearing which occurred before Judge Woods-Skipper on July 25, 2008. Doc. 24 at
2 n.3. I ordered that the hearing transcript be filed, see Doc. 50, and it revealed that
Petitioner met with trial counsel on July 25,2008. N.T. 07/25/08 (Doc. 51). At the
evidentiary hearing, Petitioner acknowledged that he made an error. N.T. 05/06/19 at 46
(“I always thought [the first time meeting counsel] was the day I was brought to court to
select my jury, but just recently, I was confronted with the record that it was actually
three days prior to me selecting my jury.”). All of the above filings were made a part of
the record at the hearing.
7

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 8 of 22

did not realize the investigator worked for his lawyer, followed by a February 2008 visit
when Petitioner was housed in the Philadelphia Prison System and a third some time later
while Petitioner was housed in Graterford, a state prison. Id. at 9-11. Petitioner informed
the investigator of a potential alibi, but the investigator told him nothing about trial
strategy. Id at 10-11.
Petitioner testified that at his July 25,2008 meeting with Judge McDermott, which
lasted about fifteen to twenty minutes, she informed him that the alibi witness was
refusing to come to court and that there was a “15 to 30 plea offer.” N.T. 05/06/19 at 13.
“We went back and forth whether or not to ... put my witness on the stand. We didn’t
really... talk too much about the deal.” Id. at 14. Petitioner wanted to call the alibi
witness but his counsel “didn’t feel comfortable putting it on.” Id. However, counsel
told him the Commonwealth’s case was not strong, and she “felt confident enough that
she can beat my case.” Id. at 14, 18. Petitioner explained that he felt rushed to decide
whether to accept the plea, and that he rejected it on counsel’s advice because she did not
think the Commonwealth had a strong case. Id. at 18, 38.7 He testified that if counsel
had met with him earlier to discuss evidence and trial strategy, and if he had been given
time to consult with his family, he would have accepted the plea offer. Id. at 17, 61.
Petitioner admitted into evidence the relevant computer inmate visitor logs from
the Philadelphia and State prisons, see Evidentiary Hearing Exhs. D-l (Pennsylvania
Department of Corrections [“DOC”] Inmate Visitor Log for November 2007 through
7The record is silent as to how long the plea offer remained open. N.T. 05/06/19
at 72. Petitioner testified that his counsel told him he had to make a decision that day and
once it was rejected “there was no going back.” Id. at 15.
8

\\

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 9 of 22

August 1, 2008) & D-3 (Philadelphia Prison System Visitor Log for November 2007
through August 2008). Petitioner also admitted into evidence a letter setting forth the
Pennsylvania DOC policy on recording inmate visitors into a computer log (Exh. D-2), a
letter regarding the Philadelphia Prison System policy on recording inmate visitors (Exh.
D-4), and a stipulation regarding the Philadelphia Prison System Visitor Policy (Exh. D5). There is no dispute that the name of trial counsel’s investigator appears in four entries
in the visitor logs, see N.T. 05/06/19 at 68, and that trial counsel’s name does not appear
on the visitor logs. tg^
Neither side presented evidence from PCRA counsel at the evidentiary hearing.
Respondents submitted into evidence a stipulation as to the testimony of Petitioner’s trial
counsel, Judge McDermott. See Stipulation Regarding Testimony by Judge Barbara
McDermott (Evidentiary Hearing Exh. C-7) (“McDermott Stipulation”). The parties
stipulated that former counsel has no independent recollection of Petitioner’s case, and
that she disposed of her criminal files as required by Pennsylvania Rule of Professional
Conduct 1.15. Id. 13. She would testify that her “general practice was to visit clients in
prison, spend time with them at the [CJC], exchange letters, and speak with [them] on a
secured telephone line.” Id. f 4a. She would “always send my investigator to the prison
to meet with clients” and informed them “that they could always call me either early in
the morning or late in the afternoon, on a non-recorded line, if they wanted to discuss
their case.” Id. If there was an urgent issue in a case, she would request that a client be
brought to the CJC to further discuss the case in person, and “[t]he notes of testimony
indicate that I did this in [Petitioner’s] case.” Id 14b. Further, “I never would have
9

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 10 of 22

proceeded to trial without first spending time and reviewing the file with my client on
several occasions,” and that if she was not prepared for trial, she would have requested a
continuance. Id. U 4c-d. When she would spend a full day at the prison to meet with
numerous clients, she would write “interviews” in the visitor log rather than individually
list each client with whom she was meeting. Id f 4e. The Commonwealth “routinely did
not make plea offers until a day or so before trial,” id. If 4g, and “a plea offer of thirddegree murder and 15-to-30 years of incarceration was a ‘good’ offer for a first-degreemurder defendant” such that, if the Commonwealth could prove the elements of firstdegree murder, “I would not have advised a first-degree-murder defendant to reject that
offer.” Id. f 4h.
The transcript of the ex parte hearing that took place on the Friday before trial
does not answer the question whether former counsel met with Petitioner prior to that
date to discuss the case, but it provides important context. Consistent with former
counsel’s practice of requesting that a client be brought to the CJC if there was an “urgent
issue,” counsel began the hearing by stating, “I asked the Court to schedule this ex parte
proceeding ... for two reasons.” N.T. 07/25/08 at 3. First, counsel stated that “in the
course of our investigation many months ago [Petitioner] had provided me with the
name” of an alibi witness. Id. Because the witness was refusing to come to court,
counsel advised Petitioner against presenting an alibi defense, but Petitioner disagreed
and counsel stated that she would therefore subpoena the witness. Id. at 3-8. Second,
counsel stated that the prosecutor “call[ed] me yesterday with an offer of third degree, 15
to 30 years, which I also wanted to pass to my client.... We have had a thorough
10

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 11 of 22

discussion of the issues and as I understand it, he is rejecting the offer.” Id at 7-8. In
answer to the court’s questions, Petitioner confirmed that he received the offer, that he
thought about whether to accept it but was rejecting it, that there was nothing else he
wanted his attorney to do before trial on Monday, and that he was satisfied with counsel’s
representation. Id. at 10-11.
Petitioner urges the court to make a factual finding that counsel did not visit
Petitioner until Friday, July 25,2008. N.T. 05/06/19 at 58, 59-60. The available
evidence does not allow me to make that determination. Petitioner testified that he did
not meet counsel face-to-face until that date, and that he never spoke to counsel by
telephone prior to that time. In contrast, according to the parties’ stipulation, former
counsel, although she has no specific recollection of Petitioner’s case, would testify that
she never would have proceeded to trial without reviewing the file with her client on
several occasions.
The absence of trial counsel’s name from the prison logs is not determinative. The
Pi

letter from the Pennsylvania DOC provides in relevant part; “If an attorney visited an
inmate ... there would be a record of that attorney’s visit in the computer system unless
there were an error, human or technological, which would prevent such a record.”
Evidentiary Hearing Exh. D-2 at 1. The Philadelphia Prison System similarly records
visits but is subject to error as reflected in the parties’ stipulation; “In the event of a
computer system outage or employee error, a visiting attorney’s name may only appear in
the visitor logbook, and not in the computer system. Such computer system outages have

11

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 12 of 22

happened in the past.” Evidentiary Hearing Exhs. D-4, D-5 15.8 Also, despite the prison
systems’ policy of logging all inmate names “no matter how many individual inmates
that attorney may be visiting,” Evidentiary Hearing Exhs. D-2 at 1 & D-4 at 1, former
counsel’s stipulated testimony is that she sometimes wrote “interviews” in the visitor log
rather than individually listing each client with whom she was meeting. McDermott
Stipulation f 4e. In other words, it is possible that counsel visited Petitioner prior to July
25, 2008, but that such a visit is not memorialized in a visitor log. Nor do the visitor logs
record telephone calls which may have occurred.
Notes of testimony from Petitioner’s trial strongly suggest that trial counsel
discussed trial strategy with Petitioner several months before July 25, 2008, particularly
regarding the presentation of a potential alibi witness. On July 30, 2008, the following
exchange occurred between trial counsel and Petitioner, outside the hearing of the jury,
concerning the alibi defense:9
MS. McDERMOTT: Mr. Jackson, as early as February of
this past year, you and I have discussed the alibi defense: is
that correct?
[PETITIONER]: Yes.
MS. McDERMOTT: And at that point, based on our
conversation and the information we had we — I did not on
your behalf and at your direction file the alibi notice; is that
correct?
8There are no physical logbooks for the Philadelphia prison for 2007 and 2008.
Stipulation Regarding Philadelphia Prison System Visitor Policy f 4 (Exh. D-5).
9As noted, during the ex parte hearing on the Friday prior to trial, former counsel
told Judge Woods-Skipper that she advised Petitioner against presenting an alibi defense,
but that he wanted her to present that defense. N.T. 07/25/08 at 10. Petitioner changed
his mind mid-trial, N.T. 07/30/08 at 161, but changed it again, and the defense did call
the alibi witness to testify. Id. at 171, 172.
12

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 13 of 22

[PETITIONER]: Yes.
MS. McDERMOTT: And then we had more recent
conversations and, in fact, I asked you be brought to the
courtroom on Friday [July 25,2008] because once again I
advised you not to file an alibi defense. But you were
instructing me to do that; is that correct?
[PETITIONER]: Yes.
MS. McDERMOTT: I just want the record clear that, in fact,
on Monday morning [July 28,2008] I spoke to you one more
time before I opened suggesting or giving you my advice one
more time, not to present the alibi defense and to let me
withdraw it and not open to the jury; is that true?
[PETITIONER]: That’s correct.
MS. McDERMOTT: And that morning, I’m going to use the
word carefully, I want to make sure you understand it, you
instructed me to do so.
[PETITIONER]: Yes.
MS. McDERMOTT: You said, specifically, that you
appreciated my advice, but you wanted to proceed in this
matter; is that correct?
[PETITIONER]: Yes.
N.T. 07/30/08 at 162-62 (emphasis added).
Petitioner testified that when he responded in the affirmative to his counsel’s
question - “as early as February of this past year, you and I have discussed the alibi
defense; is that correct?” -- he assumed counsel was referring to the February visit by
counsel’s investigator. N.T. 05/06/19 at 46. I am not persuaded by this testimony. The
record certainly suggests that Petitioner told the investigator about the alibi witness,
which makes sense so that the investigator could locate and interview the witness, but it
does not make sense that the investigator would discuss with Petitioner strategic issues
relating to “the alibi defense.” But more fundamentally, based simply on common usage,
it is far more plausible that counsel’s reference to “you and I” meant precisely that - that
in February counsel and Petitioner discussed whether to assert an alibi defense.
13

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 14 of 22

Considering all of the evidence, I conclude that counsel and Petitioner conferred
on at least one occasion prior to the date of the July 25, 2008 hearing to discuss
Petitioner’s alibi defense. Further, I conclude, based upon the July 25 transcript, that the
Commonwealth did not make the plea offer until July 24, and that counsel conveyed it to
Petitioner the next day, in her meeting with Petitioner prior to the ex parte hearing.
Having reviewed the evidence, I return to the question at hand, namely whether
PCRA counsel was ineffective for failing to pursue the claim of trial counsel’s
ineffectiveness in failing to discuss the offered plea bargain until just prior to trial. The
answer to the question is in the negative. In light of the July 25 transcript showing that
counsel conveyed the offer the day after receiving it from the prosecutor, PCRA counsel
had no basis to complain of counsel’s ineffectiveness in this respect.
Petitioner attempts to broaden the issue beyond communication of the plea offer
itself, arguing that counsel’s failure to meet with him in prison before the eve of trial
meant that he did not have sufficient time or information to reasonably consider the plea
offer. Doc. 43 at 6. This is essentially an argument that it was per se unreasonable not to
meet in person more than once prior to trial. However, even assuming that counsel did
not meet face-to-face with Petitioner until three days before his trial, counsel’s failure to
do so would not be per se unreasonable. Both parties concede that there is no case law,
precedential or otherwise, holding that counsel’s failure to meet face-to-face with a
defendant until the Friday before a Monday trial constitutes per se ineffectiveness, N.T.
05//06/19 at 78, and I decline to so find. Petitioner cites Commonwealth v. Brooks. 839
A.2d 245 (Pa. 2003), for the proposition that a lawyer is ineffective for failing to meet
14

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 15 of 22

face-to-face with his client before the first day of trial. Doc. 43 at 6. However, Brooks is
not applicable because it is a Pennsylvania decision and is therefore not binding on a
federal habeas court. It is also easily distinguishable. Brooks is limited to capital cases,
whereas the Commonwealth did not seek the death penalty in Petitioner’s case. See
Brooks. 839 A.2d at 249 (“[T]he very nature of a capital case ... clearly necessitates at
least one in-person meeting between a lawyer and his client before trial begins.”). Also,
trial counsel in Brooks never met his client in person until the first day of trial, whereas
here counsel investigated Petitioner’s alibi defense prior to trial and met with Petitioner
three days prior to trial.
United States Supreme Court and Third Circuit precedent similarly do not support
a finding that counsel acted unreasonably when she met face-to-face with Petitioner three
days before trial, in part to communicate a plea offer. In Missouri v. Frye, the Supreme
Court held that defense counsel has a duty to communicate a formal plea offer to the
defendant and that failure to properly do so may constitute ineffective assistance of
counsel. 566 U.S. 133, 145 (2012). As noted, the prosecutor did not make the plea offer
until Thursday, July 24,2008, and counsel conveyed it to Petitioner the next day. NX
07/25/08 at 7-8; NX 05/06/19 at 32, 64-65.
The Third Circuit has held that in order to effectively assist defendants in the plea­
bargaining process, counsel must provide a defendant with “enough information ‘to make
a reasonably informed decision whether to accept the plea offer.’” United States v. Bui,
795 F.3d 363, 366 (3d Cir., 2015) (quoting Shotts v. Wetzel, 724 F.3d 364, 376 (3d Cir.
2013) (internal quotations and citations omitted). Here, as previously discussed,
15

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 16 of 22

counsel’s investigator met with Petitioner to gather alibi information, and Petitioner and
counsel had substantive discussions about the case at least once, on July 25,2008,
regarding the plea offer and Petitioner’s insistence on an alibi defense over counsel’s
advice to the contrary. As alluded to above, Petitioner told Judge Woods-Skipper that he
was satisfied with his counsel’s representation, including during the following exchange
during the ex parte hearing held on Friday July 25, 2008:
THE COURT: Additionally for the record, you did receive
the offer from the Commonwealth of 15 to 30 years for third
degree murder?
[PETITIONER]: Yes.
THE COURT: And you have considered that offer. You
thought about whether or not you want to accept that?
[PETITIONER]: Yes.
THE COURT: Are you rejecting that offer at this time?
[PETITIONER]: Yes.
THE COURT: Is there anything else you want your lawyer to
do at this point in preparation for your trial that will begin on
Monday?
[PETITIONER]: Not at all.
THE COURT: You are therefore satisfied with her
representation and how she is proceeding at this point?
[PETITIONER]: Yes.
N.T. 07/25/08 at 10-11. Petitioner reiterated his satisfaction with counsel’s performance
during trial. See N.T. 07/28/08 at 153; N.T. 07/30/08 at 161. While Petitioner’s situation
is indeed compelling, as he had to make a difficult decision under difficult circumstances,
the Constitution does not guarantee him a specific amount of time or a specific quality of
attorney-client relationship in considering whether to accept a plea offer.10

^Petitioner also argued at the evidentiary hearing that counsel’s failure to meet
more frequently with him was unreasonable in light of the fact that he was 21 years old
and reached only the eighth grade in special education classes. N.T. 05/06/19 at 60.
16

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 17 of 22

For all these reasons, I conclude that PCRA counsel did not perform deficiently
when he abandoned a claim of trial counsel’s ineffectiveness for failing to meet with
Petitioner sufficiently in advance of trial to allow him to make a reasonably informed
decision regarding the plea offer.
B.

Prejudice Resulting from PCRA Counsel’s Performance (Is the
Underlying Claim Substantial)

Even were I to conclude that PCRA counsel was deficient in not asserting
ineffectiveness of trial counsel, Petitioner has failed to show prejudice attributable to the
plea-bargaining process. As previously explained, a federal court evaluates prejudice at
this stage by determining whether the underlying claim of ineffectiveness of trial counsel
was “substantial” utilizing the standard for granting a certificate of appealability.
Martinez. 566 U.S. at 14 (citing Miller-El. 537 U.S. at 327). To show prejudice where
defendant rejected a plea offer, defendant must show that, but for counsel’s incorrect
legal advice, “there is a reasonable probability that the plea offer would have been
presented to the court..., that the court would have accepted its terms, and the
conviction or sentence, or both, under the offer’s terms would have been less severe than
under the judgment and sentence that in fact were imposed.” Lafler v. Cooper, 566 U.S.
156,164 (2012).

There is no evidence in the record that Petitioner suffers from an intellectual or emotional
disability that would make him unable to understand the proceedings or the plea offer,
nor were any discernible at the evidentiary hearing. Indeed, Judge Woods-Skipper’s
colloquies of him during the trial indicate her acceptance of his understanding of the
proceeding and his choices. NT 07/25/08 at 11; 07/28/08 at 152-54 (including questions
about Petitioner’s age and education); 07/30/08 at 165.
17

i

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 18 of 22

In addressing prejudice at the evidentiary hearing, Petitioner argues that because
counsel failed to spend adequate time with him in reviewing discovery and failed to
properly inform him of the consequences of a first-degree murder conviction, he rejected
the Commonwealth’s plea offer, resulting in a life sentence. N.T. 05/06/19 at 61-62.
Petitioner’s prejudice argument fails. First, Petitioner’s testimony that he did not
understand that a first-degree murder conviction carried a mandatory life sentence until
he received the sentence, N.T. 05/06/19 at 16, is not credible. Regardless of whether
counsel advised Petitioner to accept or reject the plea offer, it is implausible that counsel
discussed the plea offer with Petitioner without discussing the penalty for a first-degree
murder conviction, and illogical for Petitioner to suggest that he did not know the penalty
for first-degree murder would not be substantially more than the offer of 15 -to- 30 years’
imprisonment contained in the plea offer for third-degree murder.
Second, Petitioner’s testimony that he wanted to take the plea deal, N.T. 05/06/19
at 37-38, but rejected it because his counsel advised him to go to trial in light of her
confidence that she could “beat my case,” id. at 14, 37-38, does not square with the
evidence. Most significantly, Petitioner testified that he insisted on proceeding with an
alibi defense over counsel’s express advice to the contrary, id. at 14, 38, which is
corroborated by the events at trial in which counsel followed Petitioner’s instructions to
present an alibi defense despite her advice. N.T. 07/25/08 at 9-10; N.T. 07/30/08 at 16263. Petitioner clearly was able to make a decision about his desires and communicate it
to counsel and the court, and if he had an interest in discussing the plea offer he would
have communicated that interest to counsel. All of the evidence points to the conclusion
18

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 19 of 22

that Petitioner was interested only in a trial that presented his alibi defense. N.T,
05/06/19 at 14 (“[W]e didn’t really talk too much about the deal because after I told Ms.
McDermott how I felt about my alibi witness and I felt like that that was probably the
best option for me....”).

CA/-cr<

•'

Third, Petitioner has continuously asserted his innocence, as he conceded during
the evidentiary hearing. N/T. 05/06/19 at 50. Petitioner testified that he would have
agreed with the facts underlying the conviction in the course of a guilty plea colloquy, but
that the facts would not be true. Id. at 51. Protestations of innocence are relevant to
determining whether a petitioner would have pled guilty for purposes of establishing
prejudice. See Wheeler v. Rozum. 410 F. App’x 453, 458 (3d Cir. 2010) (“Those Courts
of Appeals that have considered the question have recognized that protestations of
innocence are relevant to the Strickland prejudice inquiry.”). In sum, in light of
Petitioner’s immediate and unequivocal rejection of the plea offer made at the July 25,
2008 ex parte hearing, and his continued protestations of innocence, he cannot
demonstrate a reasonable probability that he would have accepted a plea deal but for
counsel’s allegedly deficient performance. See Lafler, 566 U.S. at 164. I therefore
conclude that Petitioner has not established that his underlying IAC claim is
“substantial.”
For all of the aforementioned reasons, I conclude that PCRA counsel was not
ineffective for abandoning a claim of trial counsel’s ineffectiveness for failing to meet
with Petitioner prior to trial to devise a defense strategy, and that the underlying claim of

19

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 20 of 22

ineffectiveness was not “substantial” for purposes of Martinez. Therefore, Petitioner is
not entitled to the benefit of Martinez and claim two remains defaulted,11
HI.

CONCLUSION
In the portion of his second claim that was recommitted to me for this

supplemental R&R, Petitioner argues that trial counsel was ineffective for failing to
discuss a plea bargain until just prior to the start of trial. Upon reconsideration of this
claim in light of further briefing and an evidentiary hearing, I again conclude that the
claim is unexhausted and procedurally defaulted, and that Petitioner cannot rely on post­
conviction counsel’s ineffectiveness to overcome the default pursuant to Martinez.
Accordingly, I make the following:

11 As stated in my original R&R, Doc. 28 at 13, Petitioner does not identify any
other cause and prejudice argument to excuse the default of this claim, nor does he make
a showing that the failure to consider this claim will result in a fundamental miscarriage
of justice.
20

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 21 of 22

RECOMMENDATION
AND NOW, this 30th day of May 2019, IT IS RESPECTFULLY
. RECOMMENDED that the petition for writ of habeas corpus be DENIED. There has
been no substantial showing of the denial of a constitutional right requiring the issuance
of a certificate of appealability. Petitioner may file objections to this Supplemental
Report and Recommendation. See Local Civ. Rule 72.1. Failure to file timely objections
may constitute a waiver of any appellate rights.
BY THE COURT:
/s/ELIZABETH T. HEY
ELIZABETH T. HEY, U.S.M.J.

21

Case 2:16-cv-00174-MSG Document 61 Filed 05/31/19 Page 22 of 22

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MAURICE JACKSON

CIVIL ACTION

v.

LAWRENCE P. MAHALLY, et al.

NO. 16-0174
ORDER

AND NOW, this

day of

,201

, upon careful and

independent consideration of the petition for writ of habeas corpus, the responsive briefs,
and the notes of testimony from the May 6, 2019 evidentiary hearing, and after review of
the Supplemental Report and Recommendation of United States Magistrate Judge
Elizabeth T. Hey, IT IS ORDERED that:
1.

The Supplemental Report and Recommendation is APPROVED AND
ADOPTED;

2.

The petition for a writ of habeas corpus is DENIED; and

4.

There is no basis for the issuance of a certificate of appealability.
BY THE COURT:

MITCHELL S. GOLDBERG, J.

/

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2194
MAURICE A. JACKSON, Appellant
VS.
SUPERINTENDENT DALLAS SCI; ET AL.
(E.D. Pa. Civ. No. 2-16-cv-00174)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR, SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is DENIED.
BY THE COURT
s/ Kent A. Jordan
Circuit Judge
DATED: March 3, 2021
Tmm/cc: Maurice A. Jackson
Michael R. Scalera, Esq.

Additional material
from this filing is
available in the
Clerk's Office.

